<html>
<title> - PARENTS RAISING CHILDREN: THE WORKPLACE</title>
<body><pre>[Senate Hearing 108-535]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-535

                PARENTS RAISING CHILDREN: THE WORKPLACE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON



    EXAMINING WORKING PARENTS AND THEIR CHILDREN, FOCUSING ON EARLY 
CHILDHOOD EDUCATION, ELDER CARE PROGRAMS, THE EARNED INCOME TAX CREDIT 
                   (EITC), AND WORKPLACE FLEXIBILITY

                               __________

                             APRIL 22, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
93-364                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 22, 2004

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     1
Galinsky, Ellen, President, Families and Work Institute; and 
  Karen Kornbluh, Director, Work & Family Programs, New America 
  Foundation.....................................................     3
    Prepared Statements of:
        Ellen Galinsky...........................................     8
        Karen Kornbluh...........................................    13
Klein, Donna M., President and CEO Corporate Voices for Working 
  Families; Zoila and Manuel Martinez, Employees of Marriott 
  Corporation; Joy Bunson, Senior Vice President of Human 
  Resources, JPMorgan Chase; Michael Shum, Director of Global 
  Workforce Diversity Operations, IBM; and Carol Evans, CEO of 
  Working Mother Media, and Editor, Working Mother Magazine......    23
    Prepared Statements of:
        Donna Klein..............................................    25
        Zoila and Manuel Martinez................................    29
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, prepared statement................................    30
    Prepared Statements of:
        Joy Bunson...............................................    34
        Mike Shum................................................    38
        Carol Evans..............................................    45

                                 (iii)

  

 
                PARENTS RAISING CHILDREN: THE WORKPLACE

                              ----------                              


                        THURSDAY, APRIL 22, 2004

                                       U.S. Senate,
Subcommittee on Children and Families, Committee on Health, 
                            Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander [chairman of the subcommittee] presiding.
    Present: Senators Alexander and Clinton.

                 Opening Statement of Senator Alexander

    Senator Alexander. Good morning. This is another in a 
series of subcommittee hearings on the job of being a parent in 
America today.
    During the year 2003, we held five hearings at Fort 
Campbell, at Fort Stewart, Offutt Air Force Base in Nebraska, 
the Groton Submarine Base in Connecticut, and here in 
Washington, DC. All those focused on military parents raising 
children. Among other subjects, we investigated child care and 
housing, pay, reciprocity among States on educational 
standards, as ways of providing support for today's fighting 
men and women. More than half of whom are married, and more 
than half of whom have children.
    The job of being a parent is harder today in the United 
States of America. Families are broken and parents are busier 
than ever before. Children, as a result, are hurting, and so is 
our country, therefore.
    Perhaps our greatest single problem as a country is not 
terrorism, not jobs growth, but the absence of parents in the 
lives of their own children. Committed loving parents who set a 
good example are the greatest gifts that we can give to a 
child, but too often we have devalued the job of being a 
parent. Trash on television, the risk of drug and sexual abuse, 
higher taxes, the separation of marriage from parenting, unsafe 
streets, schools that don't educate, all of these make it 
harder for parents, especially low-income parents.
    Our purpose in this series of hearings is to focus on ways 
that we can put the Federal Government back on the side of 
parents raising children. We recently have taken some steps in 
the right direction: increasing the child care tax credit, 
making it possible for parents to have more time at home with 
their children, and increasing support for after-school 
programs to make it more likely that children have supervision 
while parents are still working or are away. But we can do 
better than that.
    Today, which happens to be ``Take our daughters and sons to 
work'' day, we are going to be talking about making the 
workplace more family-friendly. There has been no greater 
social change in American society during the last 35 years than 
the increase in the number of mothers working away from home. 
In 1960, 70 percent of families had one parent at home full 
time. Today, it's just the opposite. Fully 70 percent of 
families with children are now headed by two parents or a 
single parent who have a job away from home.
    The workplace has been slow to respond to this new reality. 
The Federal Government has also been slow to respond. It wasn't 
always this way. During World War II, women went to work in the 
factories. We remember hearing about signs of ``Rosie the 
Riveter'', while the men went off to war. The workplace then 
bent over backwards to accommodate family needs with child 
care, grocery services at the work site, as well as flexible 
work schedules.
    Then the men came home from the war and the women went back 
home, too, by and large, and that was the end of employer 
interest in a family-friendly workplace for a while. Gradually, 
this has been changing again, but not as rapidly as it needs to 
change. We can't go back to the days of ``Ozzie and Harriet'', 
and I am not suggesting that, but we can have a government that 
is on the side of parents raising children, and we can 
encourage employers to adapt and support the reality of working 
parents and perhaps make it easier for them to do so. Together, 
we need to look for ways to support parents, not undermine 
them, in this very difficult and important work of raising 
their children in our world today.
    During this hearing, we will look at the challenges working 
parents face today, how employees are responding to the family 
issues of their employees, and what the Federal Government 
might do to help both employers and employees, whether that is 
through legislation, policy, regulations, or even just getting 
out of the way. We will address some of the key issues that 
American businesses are focusing on to improve their employee 
situations, such as flexible work schedules, early childhood 
education, the increasing need for elder care and the unique 
needs of low wage earning families.
    We are fortunate today to have some important new research 
on the condition of parents who have jobs away from home. Our 
first panel will discuss parents at work, their needs. On that 
first panel will be Ellen Galinsky, the President of Families 
and Work Institute, who will discuss the Institute's new 
research on what makes an effective workplace and the status of 
flexibility in the workforce.
    Next, Karen Kornbluh will testify. Karen is the Director of 
Work & Family Programs for the New America Foundation. She will 
highlight the dramatically changing profile of American 
families and why flexibility in the workplace is an important 
issue.
    Our second panel will discuss parents at work, the 
employers' response. First we will hear from Donna Klein, 
President and CEO of Corporate Voices, a coalition of 45 of 
America's largest employers. She will be followed by Zoila and 
Manuel Martinez, employees of the Marriott Corporation. They 
will give us an important perspective on workplace issues from 
the point of view of a wage earning family.
    After the Martinezes, we will hear from representatives of 
two of America's largest and most respected companies, 
especially when it comes to responding to the needs of working 
parents. Joy Bunson, Senior Vice President of JPMorgan Chase, 
and Mike Shum, Senior Vice President of the IBM Corporation.
    Our final witness will be Carol Evans, Chief Executive 
Officer of Working Mother Media and publisher of Working Mother 
magazine, which is perhaps best known for its annual list of 
the top 100 companies for working mothers. The list is now 18 
years old and has served as a powerful incentive to encourage 
employers to become more family-friendly.
    Since I have now pretty well introduced all the witnesses, 
we will begin with Carol Galinsky and Karen Kornbluh. As I 
mentioned, Ms. Galinsky will talk more about the new research 
that she has just announced. She has been doing that for a 
number of years, helping us understand the facts about the 
workplace and how it affects working families. She is a leading 
authority and is regularly seen on morning television shows 
across America.
    After her, Karen Kornbluh of the New American Foundation, 
which is a nonpartisan policy institute here in Washington, 
will speak. She began her career as an economist at Alan 
Greenspan's economic forecasting firm, which may mean we won't 
understand a word that she says today if she learned from Dr. 
Greenspan. [Laughter.]
    She also was at the Treasury Department working with 
Secretary Rubin. She will comment on this information and on 
the background and changes in American society as it affects 
parents, families, and the workforce. So we welcome Ms. 
Galinsky and we welcome Ms. Kornbluh.
    Ms. Galinsky, we will start with you. If you could 
summarize your remarks in maybe 10 minutes, each of you, then 
we would have time for questions, and then we will go on to the 
second panel.
    Welcome.

  STATEMENTS OF ELLEN GALINSKY, PRESIDENT, FAMILIES AND WORK 
    INSTITUTE; AND KAREN KORNBLUH, DIRECTOR, WORK & FAMILY 
                PROGRAMS, NEW AMERICA FOUNDATION

    Ms. Galinsky. Thank you so much, Senator Alexander. It is 
wonderful to be here, and it is wonderful to be able to comment 
on these issues with my colleagues from the New America 
Foundation, and then from Corporate Voices and from leading 
corporations and with families.
    As we know, the workplace today is not our father's 
workplace. No longer are whistles that signal the start and the 
end of the workday commonplace. No longer are photos of our 
family members at work the sole reminders that we have a life 
outside of work, and no longer is loyalty to employers an 
automatic promise of a job for life.
    A sea change has occurred over the past decades that has 
affected our families, our society, our economy, our 
competitiveness, and our global presence. Technology, as we all 
know, because we had to turn off our cell phones to come in 
here, has blurred the lines between work and home. The economy 
is global and is 24/7. New phrases have entered our 
vocabularies, such as the time squeeze or the time famine, and 
I have to say I am tempted to say it goes from ``feeling 
overworked'' to ``you're fired'' these days.
    Families and Work Institute conducts the largest and most 
comprehensive study of the U.S. workforce addressing issues of 
life on and off the job. Our national study of the changing 
workforce surveys representative samples of the Nation's 
workforce every 5 years. We have these data available from 
1992, 1997, and 2002, and we are building on a study that the 
Department of Labor used to do and stopped doing in 1977, but 
we have similar questions so that we can compare what has 
happened in the past generation over the past 25 years.
    Our most recent report, as Senator Alexander mentioned, 
with findings on flexibility is the focus of my testimony 
today, and will also be the focus of upcoming business forums 
in eight communities in partnership with the Center for 
Workforce Preparation, which is an affiliate of the U.S. 
Chamber of Commerce, and with the Center for Emerging Futures, 
through funding from the Sloan Foundation.
    There are a lot of key findings in this report, ``When Work 
Works'', which was funded by IBM, so I am not going to tell 
them all to you. We do have them available on our website. But 
I would like to set the stage by sharing some data that I think 
are most relevant to our discussion. They reflect the world 
according to U.S. employees.
    The time famine is real. The majority of U.S. employees, 67 
percent, say that they don't have enough time with their 
children. That stayed the same over the past 5 years. But the 
majority of employees, 63 percent, say they don't have enough 
time with their spouses, and that has shot way up by about 13 
points over the last 5 years. The majority of employees, 55 
percent, say that they don't have enough time for themselves.
    I would like to remind you, though, before I go on, that 
this is a nationally representative study of the U.S. 
workforce. It represents workers from all levels of jobs, from 
all parts of the country. They work in gas stations, to corner 
offices, and they do reflect the genuine diversity of our 
country.
    Although we talk about the 40-hour workweek, it is not a 
reality. Men work on average 49 hours per week, and women work 
43.5 hours per week, and that figure includes the one-in-four 
women who work part time. So if you just took full-time 
workers, it would be way higher. Fourteen percent of employees 
have a second job, and 61 percent of employees, men and women 
alike, want to work fewer hours than they do--by about nine 
hours on average. They want to go back to more like the 40-hour 
workweek.
    Seventy-eight percent of families in 2002 are comprised of 
dual-income earners, as Senator Alexander mentioned. In fact, 
only one out of every 33 fathers is now bringing home the 
bacon, compared to one-in-two 25 years ago. For dual earner 
couples with children, combined work hours have shot up by 10 
hours, from 81 hours per week in 1977 to 91 hours per week, and 
the Senator talked about families, not really having time with 
their families.
    Forty-five percent of the U.S. workforce feels conflict 
between their work and family life. They feel pulled, they feel 
stretched thin. In my book, ``Ask the Children'', which was a 
nationally representative study of kids from eight to 18 years 
old, we asked kids what their number one wish would be for 
improving their lives with their families. To the surprise of 
many people, kids said that they wished their parents would be 
less stressed and less tired. We found in another study that 
one out of three young people feel very stressed themselves, so 
it is not just stress of parents. It is the stress of kids as 
well.
    Now, in listening to this data, one might think why don't 
these employees just change things? Why don't they adjust their 
lives? After all, this is America, and choice is a very strong 
value in our lives.
    But here is where the disconnect becomes evident. Employees 
do not feel that they have a choice or can make these changes 
on their own. That is very clear. When you do focus groups with 
employees, when you read what they write, in chat rooms, it is 
a very strong message, that the choices we supposedly have are 
choices either that aren't real to them--they feel there would 
be jeopardy--or they can't make them.
    Thirty-seven percent of part-time employees would prefer to 
be working full time. But if you look at older workers, workers 
who are 60 and older, 57 percent very strongly want part-time 
work.
    Health insurance, as we all know, is of huge concern to 
many in our country and is a major consideration in employment 
and job choice. But only 40 percent of employees in part-time 
positions are offered health insurance, and that is compared to 
90 percent of people in full-time jobs. If you look at health 
insurance from all sources, only one-in-five part-timers have 
no coverage from any source.
    As I have stated earlier, more families are finding it 
necessary to have two incomes to support themselves, and many 
of the choices that they are supposed to have come with serious 
consequences. I sometimes think of it as ticking time bombs on 
those choices. For example, if you work part time, when you get 
ready to retire you may not have a pension or enough money to 
retire, or you may have no access to health insurance. Or if 
you stay home with your kids, it's really hard to sequence back 
to work.
    We also study what employers have done for employees, and 
there are many, many companies that have embraced change and 
have embraced the need to provide workplace flexibility. So you 
might ask, what's the problem?
    Well, it is only 43 percent of U.S. employees who have 
access to flextime, and when they do, 68 percent of men use it 
and 79 percent of women use it. It is not just an issue for 
working parents; it is not just an issue for women. But again, 
as I mentioned, only two-in-five employees have this kind of 
access.
    Thirty-seven percent of employees say it is very hard to 
take time off from work during the day if a personal or family 
issue arises, and although many companies have made strides to 
embrace flexibility, many, many employees don't have this kind 
of flexibility.
    For those of us who are parents, we know what happens when 
one of our kids gets sick. It's a house of cards that comes 
tumbling down. Fifty-four percent of employees with children 
said that they can't take time off from work to care for their 
sick children without either losing pay or making up some 
excuse, like pretending they are sick themselves.
    With all of the advances in technology, one would think 
that working at home is far more common than it is, other than 
bringing work home, which most everyone does. But only 11 
percent of employees work at home on a regular basis, and 43 
percent of employees would like to.
    So the question is, how do we continue to merge employees' 
needs with those of their employers? One of the most profound 
findings from this nationally representative study, ``When Work 
Works'', is that 79 percent of all employees want more 
flexibility--men, women, parents, nonparents, people with and 
without elder care responsibilities, people at different levels 
of earning, people in all different kinds of industries and 
jobs.
    But wanting flexibility, being offered flexibility, and 
actually using flexibility are three completely different 
things. This is because, even for those who have it, there is a 
perceived penalty that is associated with its use. We found 
that 39 percent, two-in-five employees, think that if they use 
flexibility that they would jeopardize their advancement. 
Employees want flexibility, but they want it without jeopardy.
    Now, does this sound like an employee advocacy position? It 
is actually not. In the 2002 national study of the changing 
workforce, we looked at a number of potential predictors of an 
effective workplace. Flexibility turns out--and I think this is 
a big surprise of our findings--to be as key ingredient of an 
effective workplace, with other things that one might expect, 
like learning opportunities or support from your boss or 
coworkers for your work success.
    In organizations that do have a high level of flexibility, 
66 percent of employees report that they are very engaged and 
committed to their jobs, and we all know how important it is 
for employees to be able to go that extra mile to help their 
organization succeed.
    In organizations that have a high level of flexibility, 72 
percent of employees plan to remain with their employer for the 
next year. We know again the cost of turnover is very high. The 
investment in recruitment, training and replacement of 
personnel all decrease significantly when there is flexibility.
    Flexibility is even linked with better mental health. We 
consider that particularly important because our national study 
finds that one-in-three employees is reporting one or more 
symptoms of clinical depression, and we know the cost 
associated with that.
    Now, there was an article, for those of you who read USA 
Today, about the SAS company, a model employer for providing 
these kind of benefits. The article was particularly 
interesting because it talked about the fact that, even during 
a difficult period for technology companies, SAS has done real 
well. They have continued to hire workers; they have a very, 
very, very low turnover rate; and they resisted the urge to go 
public during the .com bubble. What USA Today says, if they do 
ever go public, Wall Street will call for them to cut back on 
all of these so-called perks.
    Well, I think that they have it wrong, because there are a 
lot of companies that are public that are finding, even in 
public companies, that you don't have to be private and it has 
the same kind of benefits. You will hear from two of those 
later, from JPMorgan Chase and IBM. The financial reports are 
showing that they are in good shape.
    So we understand that change is tough, but the old 
workplace doesn't fit the new workforce and the new economy. 
Work is something that we all value. It is more evident than 
ever, that when work ``works,'' both employees and employers 
prosper.
    I suggest a three-pronged approach to address these issues: 
engage in study, take action, and raise awareness. Engaging in 
study, I would recommend that a high level commission be 
established on how to make work ``work''. It should include 
very senior representatives of government, business and unions. 
It should take a fresh look--and I think I would underline the 
``fresh''--at some of the undercover but critically important 
issues of today, particularly the high level of workplace 
stress and its impact on families and on children, and the 
attendant health care repercussions and cost. I would like to 
see this commission come up with recommendations for action and 
an implementation plan.
    Second, I recommend that the funding of innovative pilots 
and programs be established. These should include rigorous 
assessments of the results of these interventions that address 
some of the tough issues on workplace flexibility, such as the 
need to remove barriers. I think this is particularly 
important. As the workforce ages, we need to help those more-
than-one-in-two older workers who want part-time but would 
jeopardize their pension or their retirement if they do so.
    We need to provide health care for part-timers, to provide 
short leaves for parents of sick children, and we need to 
establish flex careers for people, the one-in-four women who 
want to take time out of the workforce. The opting out notion 
is real. But they do come back to work, and we need to help 
them with the on ramps so that they can sequence back to work.
    These options also need to include fathers, those who need 
leave when they have teenagers, elder care responsibilities, 
compassion care responsibilities and so forth.
    Finally, raise awareness. I recommend a campaign to raise 
awareness about how to change the workforce to address 21st 
century challenges and opportunities, and especially to reduce 
the conflict that millions feel.
    Thank you very much for this opportunity to testify, to 
give voice to these issues, and to share our strong research 
finding that solutions that meet the needs of business and of 
working families are not only possible, but imperative.
    Senator Alexander. If the people want access to your 
research, your new report, how do they get it?
    Ms. Galinsky. We have a website called ``When Work Works'', 
and it's whenworkworks.org. Everything is on the website and 
downloadable. We have also brought copies that are on the side 
tables.
    Senator Alexander. Thank you very much. We will look 
forward to talking more about it.
    [The prepared statement of Ms. Galinsky follows:]

                  Prepared Statement of Ellen Galinsky

    The workplace today is not our father's workplace. No longer are 
whistles that signal the start and end of the workday commonplace. No 
longer are photos of our family members at work the sole symbol of our 
lives outside of work. No longer is loyalty to employers an automatic 
promise of a job for life.
    A sea change has occurred over the past decades that has affected 
our families, our society, our economy, our competitiveness, and our 
global presence. Technology has blurred the lines between work and 
home. The economy has become global and 24/7. New phrases have entered 
our vocabularies such as the time squeeze, the time crunch and, I am 
tempted to say, it goes from ``feeling overworked'' to ``you're 
fired.''
    Families and Work Institute conducts the largest and most 
comprehensive study of the U.S. workforce addressing issues of life on 
and off the job. Our National Study of the Changing Workforce surveys 
representative samples of the Nation's workforce every 5 years. We have 
the most robust data available on U.S. workers from 1992, 1997, and 
2002. Prior to Families and Work Institute assuming this leadership 
role, the U.S. Department of Labor conducted The 1977 Quality of 
Employment Survey, with a number of parallel questions that make 
historical comparisons possible. We hope we can tell you just about 
anything you want to know about changes in the workforce over the past 
25 years.
    The most recent report from the National Study with findings on 
flexibility is the focus of my testimony today and will also be the 
focus of upcoming business forums in eight communities in partnership 
with the Center For Workforce Preparation, an affiliate of the U.S. 
Chamber of Commerce and the Center for Emerging Futures, through 
funding from the Sloan Foundation. There are so many key findings in 
this report, When Work Works, funded by IBM, that we would be here far 
too long if we were to review them in detail, but I would like to set 
the stage by sharing some data that we believe reflect the world 
according to U.S. employees.
    <bullet> The majority of employees (67 percent) say they don't have 
enough time with their children. The majority of employees (63 percent) 
say they don't have enough time with their spouses. The majority of 
employees (55 percent) also say they don't have enough time for 
themselves. Before I proceed, I would like to remind you that our data 
are representative of U.S. employees. They work in all levels of jobs, 
from gas stations to corner offices, and reflect the genuine diversity 
of our country.
    <bullet> The 40-hour workweek is also not a reality. Men work an 
average of 49 hours per week and women work an average of 43.5 hours 
per week, and that figure includes the one-in-four women who work part 
time. Fourteen percent of employees have more than one job. Sixty-one 
percent of employees--men and women alike--want to work fewer hours 
than they do.
    <bullet> Seventy-eight percent of families in 2002 are comprised of 
dual-income earners. Only 33 percent of fathers are the sole wage 
earners today, versus 51 percent in 1977. For dual-earner couples with 
children, combined work hours are now 91 hours per week, up from 81 
hours per week in 1977.
    <bullet> Forty-five percent of today's employees feel pulled and 
stretched thin between their responsibilities at work and at home. In 
my book Ask the Children, a nationally representative group of children 
ages 8 to 18 were asked for their number one wish to improve their 
lives. The largest proportion wished that their parents were less tired 
and stressed, and one-in-three young people feels very stressed 
themselves.
    Listening to the data I just presented, one might think, ``Why 
don't these employees just make a change? Why don't they adjust their 
lives? After all this is America, and we believe in choice.''
    This is where the disconnect becomes evident. Employees do not feel 
they have a choice or can make these changes.
    <bullet> Thirty-seven percent of part-time employees prefer to be 
working full-time, however, if you look at employees who are 60 years 
or older, 57 percent of them prefer to work part-time.
    <bullet> Health insurance, as we all know, is of huge concern to 
many in our country and is a major consideration in employment and job 
choice. Only 40 percent of employees in part-time positions are offered 
health insurance, while 90 percent of employees in full-time positions 
are offered health insurance. One in five part-timers doesn't have 
health insurance from any source.
    As I have stated earlier, more families are finding it necessary to 
have two incomes to support themselves and so many of the so-called 
choices families have come with serious consequences--for example, if 
you work part-time, you may have little or no money to retire on and no 
access to health insurance, or if you stay home with your children, you 
may have a very hard time sequencing back to work.
    Families and Work Institute also studies what employers have done 
for employees and there are many, many, many companies that have 
embraced change and have embraced the need to provide workplace 
flexibility. So, one might ask, what's the problem?
    <bullet> Of the 43 percent of employees who have access to 
flextime, 68 percent of men use it, and 79 percent of women use it. But 
only two in five employees have this access.
    <bullet> Thirty-seven percent of employees say it is hard to take 
time off during the workday when personal or family issues arise. 
Although companies have made strides to change and embrace flexibility, 
there are many employees who are still struggling to make it work.
    <bullet> For those of us who are parents who work, we know how 
difficult it is when a child is sick. Fifty-four percent of wage and 
salaried employees with children say they can't take time off to care 
for sick children without losing pay, having to use vacation days, or 
pretending they are sick themselves.
    <bullet> With all the technology advancements that have been made, 
only 11 percent of wage and salaried employees work at home, but 43 
percent would like to be able to do so.
    So the question becomes, how do we continue to merge employees' 
needs with those of their employers?
    One of the most profound findings in our most recent study, When 
Work Works, is that 79 percent of all employees would like more 
flexibility. This includes men, women, parents, nonparents, employees 
with and without elder care responsibilities, employees at different 
earning levels, employees in goods-producing industries and service 
industries.
    Wanting flexibility, being offered flexibility, and actually using 
flexibility are three completely different things. This is because, 
even for those who have access to it, there is a perceived penalty 
associated with its use. Thirty-nine percent of employees believe that 
using flexibility would jeopardize their career advancement. So 
obviously employees want flexibility without jeopardy. But does 
promoting flexibility become an employee advocacy position? Not at all!
    In the 2002 National Study of the Changing Workforce, we examined a 
number of potential predictors of an effective workplace. Flexibility 
turns out, perhaps surprisingly, to be a key ingredient, along with 
learning opportunities and the support of supervisors and coworkers.
    <bullet> In organizations that have high levels of flexibility, 66 
percent of employees report high levels of job engagement and 
commitment. We all know how important it is for employers to have 
employees who are willing to go that extra mile to help their 
organizations succeed.
    <bullet> In organizations that have high levels of flexibility, 72 
percent of employees plan to remain with their employers for the next 
year. Retaining employees has direct cost advantages for business. The 
investment in recruitment, the investment in training, and the 
investment in replacement of personnel all decrease significantly.
    <bullet> Flexibility is even linked with better mental health.

Conclusion

    We understand that change is tough. But the old workplace doesn't 
fit the new workforce and the new economy. Work is a value that 
Americans hold dear. It is more evident than ever that when work 
``works,'' employees and employers prosper.
    I suggest a three-pronged approach to address these issues: engage 
in study, take action, and raise awareness.
    1. Engage in Study. I recommend that a high-level commission be 
established on how to make work ``work.'' It would include very senior 
representatives of government, business, and unions. It would take a 
fresh look at some of the undercover, but critically important issues 
of today, especially the high level of workplace stress, its impact on 
families and work, and the attendant health care repercussions and 
cost. This commission would come up with recommendations for action and 
an implementation plan.
    2. Take action. I recommend the funding of innovative pilots and 
programs that include rigorous assessments of the results of these 
interventions that address some of the tough issues in workplace 
flexibility such as:
    <bullet> the need to remove some of the barriers, including the 
pension barriers, to enable the 57 percent of older workers who want to 
work part-time do so;
    <bullet> the need to provide health care for part-timers;
    <bullet> the need to provide short leaves for parents of sick 
children;
    <bullet> the need to provide flexible career options for the one-
in-four women who want to take time out of the workforce when they have 
children and the provision of on-ramps that enable them to sequence 
back to work. These options also need to include fathers and others who 
need leaves when they have teenagers, elder care responsibilities, 
compassion care responsibilities and so forth.
    3. Raise awareness. I recommend a campaign to raise awareness about 
how to change the workplace to address 21st century challenges and 
opportunities and especially to reduce the conflict between work and 
family that millions now feel.
    Thank you very much for this opportunity to give voice to these 
issues and to share our findings that solutions that meet the needs of 
business and of working families are not only possible, but imperative.

    Senator Alexander. Ms. Kornbluh.
    Ms. Kornbluh. Thank you. Good morning.
    Thank you very much for your leadership in holding this 
hearing, Chairman Alexander, and also for bringing both your 
private sector and government leadership to shine the spotlight 
on the critical issues facing parents raising children. I know 
that Senator Dodd isn't here, but he has demonstrated also, 
continuing leadership in creating new policies to help children 
and families, and this committee has played an important 
historical role in these issues as well.
    At the New America Foundation, we collaborate very closely 
with the Families and Work Institute, and you will hear some 
echoes of what Ellen said in my remarks as well. Like them, we 
receive funding from the Sloan Foundation for our work on 
flexibility.
    I believe that the timing of this hearing is very 
fortunate. The stresses on families at the dawn of the new 
century are too great and too widespread. Far too many mothers 
must choose every day between staying at home with a sick child 
or keeping their jobs. Too many fathers must choose between 
seeing their children at all when they're awake, or holding on 
to health insurance. And too many parents, as you know from 
your private sector experience, must choose between child care 
that they can't afford or leaving their children home alone 
with TV as their only babysitter. These are the kinds of 
choices that no parent should have to make, and yet they are 
the kinds of choices parents make every day in this wealthy 
Nation of ours.
    Our main message is this: that these stresses can no longer 
be seen as merely private problems that can be solved by 
individual families and employers acting on their own. First, 
they affect too many children, families and employers; second, 
they are caused in part by antiquated policies that need 
reform; and third, despite the enormous strides that have been 
made by many employers--and you will hear about those today--
and the strides that will be made in the future, thanks to the 
work of Ellen and Donna and Working Mother, these problems will 
not be able to solve themselves for all employees.
    We find that families themselves are finally beginning to 
identify the need for change. We have just gotten back some 
polling results and we are analyzing them, but we can see 
already that Americans are worried about economic security and 
they are worried about the time that parents have to spend with 
their children. These are not either/or issues for them. They 
don't want to sacrifice either.
    Just to give you a taste of that, 76 percent of likely 
voters said that they feel it is hard for families to earn 
enough to pay their bills and still have time to care for their 
families. And 70 percent think that this problem has gotten 
worse.
    In my brief testimony I will provide a short historical 
context, describe the Catch 22 many parents find themselves in, 
and suggest very briefly some directions for a forum. You, Mr. 
Chairman, provided the context, I think, very well, but the 
American family changed dramatically over the last decades of 
the 20th century, and the way we characterize it is that, 
instead of a breadwinner, and a homemaker, we have new juggler 
parents, parents who themselves have to take care of both work 
and family. They have new responsibilities that the workers of 
yesterday didn't have.
    This change in the family has taken place in the context of 
a very new economy. Once a worker might expect to work 40 hours 
a week for 40 years for a single employer, and this employee 
would find that his employer could provide security for this 
family through retirement. But today, instead of these company 
men, many employees have become global free agents. They switch 
employers every 5 years, nearly one-quarter are what we call 
nonstandard temp workers, part-time, freelance, and they are 
competing with workers around the globe for wages and benefits.
    The new parents and employees are caught in a Catch 22. 
They have to choose, as Ellen has described, between inflexible 
full-time jobs, created for the breadwinner, or company man of 
old, or part-time jobs with a high penalty. Because of the lack 
of flexible mainstream jobs, parents often buy flexibility by 
coddling together these nonstandard jobs, part-time jobs, temp 
jobs, or contract work, but doing so imposes a penalty because 
these jobs are not subject to the same rules as full-time 
regular jobs and so are likely to offer lower hourly wages, 
benefits, and job security.
    Obviously, it doesn't have to be this way. Now that we're 
in the 21st century, it seems that it shouldn't be that parents 
have to choose between security and flexibility. Why not be 
able to have the security of a full-time job and the 
flexibility of a part-time job? After all, one of the watch 
words of the 21st century global economy is supposed to be 
flexibility.
    Just very briefly, to give a little more history, the 
economics of the family has shifted. Before, as recently as 100 
years ago, most families lived on a farm and were moving to the 
factory and the office. But on the farm, both parents and the 
children had worked, and they had an assert that provided their 
income, the farm. When they moved into jobs where the family 
became dependent on a single bread-winner's earnings, if that 
breadwinner was fired or became disabled or retired, the entire 
family's economic security was at risk. So eventually the 
country responded with a series of programs to provide that 
family with economic security--things like disability 
insurance, unemployment insurance, Social Security.
    Many of these old policies, the purpose of them still make 
sense, providing family economic security. But the design of 
them was around the company man, the breadwinner and the 
homemaker. What we are urging is to look at these policies, not 
abandon them, but reform them for the new era.
    To go into the health care issue that Ellen brought up, 
because of the way we deliver health care in this country, 
which is through employers, it provides a high fixed cost for 
an employer to provide health care for an employee. That means 
the incentive is to work that employee as long as possible. In 
other words, it creates a disincentive to do job sharing or 
part-time options.
    In addition, as you know, there is no minimum requirement 
for sick or vacation leave. Almost half of the employees in the 
private sector do not have paid sick leave. There is a new 
study out today, I believe, by the Urban Institute, that shows 
those who need family medical leave the most are the least 
likely to have access.
    You and your staff, I know, are already working on an 
agenda of reform, but I just wanted to touch on some areas that 
you might consider. One is that to create family-friendly 
mainstream jobs, government has to help industry with knowledge 
and resources. I think the work that your other witnesses are 
going to do, and have done, before this hearing and will do 
after this hearing, will help to do this. But I think the 
Government can use its bully pulpit and other tools very 
effectively here as well.
    For instance, work with industry to create a national 
award, to build on the Sloan awards that are going to be 
provided in the eight cities to best practice companies, to 
build on the Working Mother magazine 100 best companies list. 
AARP also has a company award. There is a Malcolm Baldrige 
award that currently exists for high quality companies, one for 
flexible companies that work well with their employers.
    The Commerce Department could provide research into how 
flexibility can improve the bottom line, so that managers have 
better tools to understand how to evaluate employees besides 
how long they have sat in their chair. Also, technical 
assistance. There have been these manufacturing extension 
centers that help manufacturing companies improve their 
quality, while technical assistance could help small companies 
understand what the largest companies have been doing to 
implement flexible workplace practices.
    Then, of course, tax incentives could help some companies 
who are reluctant to get started because of the perceived 
risks.
    In addition, I think paid sick and family and medical leave 
are a necessary part of employing what Ellen has called a 
``whole person''. I understand that there are concerns about, 
in a global economy, adding to the cost of employing people, so 
I think a full discussion could look at whether general 
revenues could be used or other means to offset some of those 
costs. But, I don't think we want to stop the conversation 
before it gets started.
    It is also essential to mainstreaming flexible workers to 
find a way for part-time, temp, and contingent workers to 
obtain access to health care and private pension at affordable 
rates, and with the tax incentives that self-employed workers 
have and that full-time regular employees who get health 
benefits are provided.
    Then, of course, we should bring education out of the 
agricultural age, make preschool and after school available, 
and work on making quality child care more affordable.
    I have also proposed creating new nest egg accounts that 
would help families save for the various expenses they incur, 
because running in this 21st century global economy with a 
fraying social insurance system, families might use these 
accounts to offset the cost of child care to replace income 
that they lose when they go part-time.
    Finally, Senator Patrick Daniel Moynihan used to urge 
passage of a national family policy, like the national 
employment policy that led to the creation of the economic 
report of the President that is produced by the Council of 
Economic Advisors. And a national family policy could similarly 
produce an annual report, presenting data on family well-being 
that would provide a valuable benchmark for policy making.
    Thank you very much for your leadership on these issues. I 
look forward to your questions.
    [The prepared statement of Ms. Kornbluh follows:]

                  Prepared Statement of Karen Kornbluh

    Good morning. Thank you for your leadership in holding this 
hearing, Chairman Alexander, and for bringing your private sector and 
government leadership to shine the spotlight on the critical issues 
facing parents raising children. Thank you Senator Dodd for your 
continuing leadership in creating new policies to help children and 
families.
    My name is Karen Kornbluh, director of the Work and Family Program 
at the New America Foundation, a nonpartisan policy institute here in 
Washington. The Work and Family Program is a new program created for 
the express purpose of bringing together research with public education 
to create a sense of urgency around issues of work and family.
    We created this program for the same reason you are holding this 
hearing. The stresses on families at the dawn of the new century are 
too great--and too widespread. These stresses can no longer be seen as 
merely private problems that can be solved by individual families and 
employers acting on their own. They affect too many children, families 
and communities; they are caused in part by antiquated policies; and 
commonsense policy reform could help.
    The timing of this hearing is appropriate. Families are finally 
beginning to identify the need for change. We are in the process of 
analyzing new poll results on these issues that we have not yet 
released. We can report that 76 percent of likely voters feel that it 
is hard for families to earn enough to pay their bills and still have 
time to care for their families. And 70 percent of likely voters think 
that this has gotten worse. They are worried about the children in 
these families especially. And they believe that reforms--including 
reforms that would make flexibility possible without sacrificing 
economic security--would ease the stress. We should be optimistic about 
the prospect for a commonsense agenda that addresses the ability of 
parents to spend more time with their families.

Historical Context

    The American family changed dramatically over the last decades of 
the twentieth century. In 1960, 70 percent of families had a parent 
home full-time. Today, this is reversed. Fully 70 percent of families 
with children are headed by two working parents or by an unmarried 
working parent.\1\ The new ``juggler parent'' has responsibility for 
both making ends meet and caring for the family. And this family can 
now include elderly relatives--over 21 percent of households have at 
least one individual who had cared for a relative or friend over age 50 
in the past year. Of those caregivers, 59 percent have worked and 
managed caregiving responsibilities at the same time.\2\
---------------------------------------------------------------------------
    \1\ U.S. Census Bureau, Bureau of Labor Statistics.
    \2\ National Alliance for Caregiving and AARP (2004) Caregiving in 
the U.S.
---------------------------------------------------------------------------
    This change in the family has taken place in the context of--and to 
some degree as a result of--changes in the economy. Once a worker might 
expect to work 40 hours a week for 40 years for a single employer. 
Today global competition, communications technology, streamlining, and 
deindustrialization mean many employees are ``free agents''--on 
average, they switch employers every 5 years and nearly one-quarter are 
``nonstandard'' (e.g. temp, part-time, free-lance, contingent, day 
labor, on-call or self-employed).\3\ The 21st Century economy offers a 
high premium on employees' human capital. But it offers less security 
from a paternalistic employer-employee relationship.
---------------------------------------------------------------------------
    \3\ Mishel et al. (2003) The State of Working America 2002/2003. 
Economic Policy Institute. Ithaca, NY: Cornell University Press; 
Wenger, Jeffrey (2003) Share of Workers in `Nonstandard' Jobs Declines. 
Washington, DC: Economic Policy Institute.
---------------------------------------------------------------------------
    The economics of the family has shifted before. As recently as 100 
years ago, most families lived on a farm. Both parents--and the 
children--worked at home. The family owned an important asset that 
supported them into old age. The change from the agricultural family to 
the industrial era breadwinner-homemaker family meant that suddenly the 
father left the home to work at a factory or office. The family was 
dependent on the father's wages. If he became disabled, was fired, or 
retired, the family lost its sole means of support. The Nation 
responded eventually with a set of laws designed to give this 
industrial-era family economic security: disability insurance, 
unemployment insurance, Social Security, the 40-hour workweek and then 
taxpayer-subsidized health insurance and pension benefits.

A Societal Problem

    Today's parents face a new set of challenges. Let's face it. There 
are only 24 hours in a day. Children need someone to raise them--
preferably during the day when they are awake. Employers want employees 
to be focused on the job. In a nation where child care is the 
responsibility of the individual, most parents work, and workplaces are 
inflexible, something has to give.
    Parents have not looked to Washington to solve their problems. 
Parenting and giving your family security are viewed as private 
concerns; as is negotiating time off with your employer.
    But today, the tensions created by the needs of the new family and 
inadequate societal response are creating problems for children, 
families and communities across the Nation. Americans today have 22 
fewer hours a week to spend with their kids than they did in 1969.\4\ 
Millions of children are left in unlicensed day care every day--or at 
home alone with the TV as a babysitter. Employed mothers lose almost an 
hour of sleep a day in their attempt to make it all add up.\5\ Recent 
data show that parents with school age children show high signs of 
stress--stress that has an impact on their productivity and work--when 
they have inflexible jobs and unstable after-school care.\6\
---------------------------------------------------------------------------
    \4\ The Annual Report of the Council of Economic Advisors (2000) 
Economic Report of the President. Washington, DC: United States 
Government Printing Office.
    \5\ Bianchi, Suzanne (2000) ``Maternal Employment and Time with 
Children: Dramatic Change or Surprising Continuity?'' Demography, 37 
(4).
    \6\ Barnett, Rosalind Chait & Gareis, Karen (2004) Parental After-
School Stress Project. Community, Families & Work Program, Brandeis 
University, summary available: http://www.bcfwp.org/PASS Findings.pdf.
---------------------------------------------------------------------------
    Parents are caught in a Catch 22. Full-time jobs, with benefits and 
higher wages, tend to be inflexible and have long hours. Fifty-seven 
percent of workers have no control over starting and end times.\7\ 
Fifty-four percent of wage and salaried workforce with children say 
they have no time off to care for sick children without losing pay, 
having to use vacation days, or fabricating an excuse.\8\ This is 
untenable for many parents--especially those lacking adequate child 
care or after-school options. But the alternative is often part-time or 
other flexible work that puts them at economic jeopardy: it comes with 
lower hourly wages, no benefits and little job security. Researchers 
have identified a well-established parent penalty. The gap between 
men's and women's wages is 10 to 15 percent larger for women with 
children than for women without children.\9\ There is no real 
alternative that allows parents to work in good, mainstream jobs with 
some control over their hours.
---------------------------------------------------------------------------
    \7\ Bond et al. (2002) The National Study of the Changing 
Workforce. New York: The Families and Work Institute.
    \8\ Families and Work Institute (2004) Workplace Flexibility: What 
is it? Who has it? Who Wants it? Does it Make a Difference? New York: 
Families and Work Institute.
    \9\ Waldfogel, Jane (1998) ``Understanding the ``Family Gap'' in 
Pay for Women and Children'' Journal of Economic Perspectives, 12 (1).
---------------------------------------------------------------------------
    For all parents, this is a difficult struggle. You often feel you 
are not doing anything well--not your work or raising your children. 
But, despite--or maybe because--of the near universality of the 
struggle, the media and many professionals tend to trivialize the issue 
or assume it away. Because professionals often find a way to make it 
all work out--as a result of a forgiving boss, a stay-at-home neighbor, 
company-run emergency day-care or even bringing a child to the office--
they assume that all Americans can. But it is a mistake to generalize 
from the experiences of workers with a great deal of leverage who work 
for well-financed companies to the rest of the workforce.
    Take the snow days this past winter, as an example. Professional 
parents had it tough. They had to reschedule conference calls, cancel 
meetings, call-in sick. But, outside this rarified world, the vast 
majority of families faced a far less tolerant reality.
    For the single mother with a job as a part-time security guard, or 
the married medical technician at the local hospital, the shift starts 
on time, whether school opens or not. If she doesn't show up for work, 
she could lose her job. And, if she loses a paycheck, she could lose 
family health insurance as well. If she goes to work, who watches her 
children? Her neighbors and family have child care responsibilities of 
their own.
    These are the kinds of choices no parent should have to make.
    Yet, they are the kinds of choices parents make every day in this 
wealthy Nation of ours.
    Part of the reason that parents must make these choices is that 
antiquated policies prevent workplaces from offering the kinds of 
flexibility necessary.

Antiquated Policy Helps Cause the Problem

    As Ellen Galinsky points out in her important new research, 
flexibility should be the watchword of 21st Century business. Recent 
management books with titles like The Future of Work and The Seven-Day 
Weekend argue that new communications and management tools make it 
possible for employees to have more autonomy.
    And in fact, a number of studies find that giving employees access 
to flexible work arrangements can be positive for the bottom line--in 
terms of employee commitment, reduced absenteeism, and increased 
employee retention.\10\
---------------------------------------------------------------------------
    \10\ See Grover, S. & Crooker K. (1995) ``Who appreciates family-
responsive human resources policies: The impact of family-friendly 
policies on the organizational attachment of parents and nonparents.'' 
Personnel Psychology, 48; Bailyn, L. & Fletcher, J.K. (1997) 
``Unexpected connections: Considering employees' personal lives can 
revitalize your business.'' Sloan Management Review, 38; Bond et al. 
(2002) The National Study of the Changing Workforce. New York: The 
Families and Work Institute; and McCampbell, A. (1996) ``Benefits 
achieved through alternative work schedules.'' Human Resources 
Planning, 19 (3).
---------------------------------------------------------------------------
    But we should not be complacent that all businesses will get 
there--for all workers--on their own. As of yet, as The Families and 
Work Institute points out, employers tend to neglect the fact that 
their employees are whole people, with lives outside of work. There is 
already a tendency for flexible arrangements and benefits to be more 
available in larger and more profitable firms, and then to the most 
valued professional and managerial worker.\11\ Small companies are less 
likely to offer both formal and informal policies and programs to help 
employees balance work and family. They report work/family issues 
occurring at least every other day but presumably lack the resources or 
the knowledge to respond in a way that would reduce the tensions. \12\
---------------------------------------------------------------------------
    \11\ Golden, Lonnie (2000) The Time Bandit: What U.S. workers 
surrender to get greater flexibility in work schedules. Washington, DC: 
Economic Policy Institute.
    \12\ Pitt-Catsouphes, Marcie and Litchfield, Leon (2001) ``How are 
Small Businesses Responding to Work and Family Issues?'' in Working 
Families: The Transformation of the American Home, Rosanna Hertz and 
Nancy L. Marshall, ed. Berkeley, CA: University of California Press, 
Berkeley. CA.
---------------------------------------------------------------------------
    In addition, there are policies that stand in the way--policies 
that were put in place to help provide security to families, but that 
now contribute to their lack of security.
    For example, because of the way we deliver health care and private 
pensions in the U.S., employers who provide these benefits face a high 
fixed-cost per employee. This creates a disincentive to offer job-
sharing or part-time options--employers would prefer to work those 
employees as many hours as possible rather than hiring two workers.
    Conversely, parents often ``buy'' flexibility by cobbling together 
part-time, temp or contract work--but doing so imposes a large penalty 
beyond the direct effect of working fewer hours. These jobs are not 
subject to the same rules as full-time regular jobs and so are likely 
to offer lower hourly wages, benefits and job security. As a result, 
only 14 percent of nonstandard workers have their own health insurance, 
compared to 69 percent of full-time workers in standard work 
arrangements. Sixteen percent of nonstandard workers receive pension 
benefits through their employer, in comparison with 66 percent of 
regular full-time workers. In terms of wages, regular part-time workers 
earn $3.97 less per hour than regular full-time workers.\13\ And so the 
very people whom the safety net should protect--those who are raising 
children and the children themselves--are left out.
---------------------------------------------------------------------------
    \13\ Wenger, Jeffrey (2003) Share of Workers in `Nonstandard' Jobs 
Declines. Washington, DC: Economic Policy Institute.
---------------------------------------------------------------------------
    There is no minimum requirement for sick or vacation leave. Almost 
half (47 percent) of employees in the private sector do not have paid 
sick leave.\14\ Thirteen percent of nonpoor workers with caregiving 
responsibilities lack paid vacation leave, and 28 percent of poor 
working caregivers lack any paid vacation time. \15\ Thanks to the 
Family and Medical Leave Act, full-time employees can take up to 12 
weeks of family and medical leave, but this leave is unpaid and applies 
only to workers at firms with 50 or more employees.
---------------------------------------------------------------------------
    \14\ Smolensky, Eugene and Gootman, Jennifer Appleton, ed. (2003) 
Working Families and Growing Kids: Caring for Children and Adolescents. 
Washington, DC: The National Academies Press.
    \15\ Heymann, Jody (2000) The Widening Gap. New York: Basic Books.
---------------------------------------------------------------------------
    There are real worries about asking employers or employees to pay 
for this leave through an increase in taxes on employees. But this 
shouldn't stop the discussion. This kind of leave is essential in the 
21st Century and society can find a way to pay for it.
    The Fair Labor Standards Act applies the 40-hour workweek to only 
part of the workforce. For everyone else the workweek seems to have 
become 24x7. There has been a great debate in Congress about which 
employees are covered by these provisions and whether they can or 
should be able to take ``comp-time'' instead of time-and-a-half for 
overtime. But there has been little debate in the Nation about a 
culture that often puts jobs and the needs of the workplace above all 
else--including the well being of our children and communities.
    For most families, it is difficult if not impossible to find 
affordable, quality child care. It can cost a family from $4,000-
$10,000 per year, per child--without tuition assistance.\16\ Pre-K and 
after-school are far from universally available. The education day and 
year remain on an agricultural schedule.
---------------------------------------------------------------------------
    \16\ Schulman, Karen (2000) The High Cost of Child Care Puts 
Quality Care Out of Reach for Many Families. Washington, DC: Children's 
Defense Fund.
---------------------------------------------------------------------------

Directions for Reform

    You and your staffs are already working on an agenda of reform to 
increase the options available to employers and families. Here are some 
suggestions for areas you might consider.
    Family-Friendly Full-Time. In order to make full-time jobs more 
flexible, we need to start by spreading the gospel that Ellen Galinsky 
has preached. The government and business leaders have a history of 
helping to spread best practice throughout industry. In the 1980s, 
American companies embraced higher quality standards. At first, they 
were reluctant. Spending on training employees, giving them more 
control and fixing processes would cost money. But business leaders, 
business schools, new institutions like the Council on Competitiveness 
and even government programs like the Manufacturing Extension Centers, 
the Advanced Technology Program and the Malcolm Balderidge awards 
helped them to realize that improvements to the bottom line result when 
the product quality is higher. Today, private sector leaders are 
beginning to carry the message that to operate in America in the 21st 
Century you will have to and you will be able to give employees more 
autonomy. They will have to incorporate flexibility over work hours 
into this message. The government can help.
    <bullet> National Award. A new nationwide award to recognize 
excellence in providing employees more workplace flexibility would 
shine attention on the problem and best practices.
    <bullet> Research. The Commerce Department could fund research into 
new ways for employers to measure employee performance and loyalty--
other than hours in the chair.
    <bullet> Technical Assistance. Outreach programs at Commerce 
Department and Small Business Administration can help companies realize 
that workplace flexibility is win-win for the workforce of the new 
century and give them new methods for allowing flexibility for 
different kinds of workers by sharing best practices.
    <bullet> Tax Incentives. Tax credits akin to the telecommuting tax 
credit would help employers get started by removing some of the 
perceived risks of allowing employees to work flexibly. A pilot 
project--combined with the technical assistance--would allow for study 
of the effectiveness of such a credit.
    <bullet> Leave. Americans need the flexibility to take time off for 
a new child; when the worker, a child, or a parent is ill; or to 
participate in family life. This is a necessary part of employing a 
``whole person.'' In a 21st century, global economy, it is important to 
discuss whether using general revenues can be used to offset some of 
the costs to employers and employees.
    Reducing the Part-Time Penalty. Workers who need flexibility must 
be ``mainstreamed''--rather than shunted into an economic ghetto. This 
will require a cultural change. It also means making some of the 
benefits for health insurance and pensions available to part-time, 
temp, and contingent workers.
    Bring Education out of the Agricultural Age. Pre-K and after-school 
should be universally available. The dependent care tax credit should 
be dramatically expanded and made refundable. In addition, all 
employees should be able to use the flexible spending accounts 
available to upper income workers at certain companies.
    Nest Egg Accounts. In a 21st Century economy, families are working 
harder with greater risk. New tax-preferred account would allow 
families to save for the various expenses they incur as soon as they 
make the commitment to raise a child. These accounts could be used to 
help offset the dip in earnings families suffer when one parent 
switches from full to part-time.
    Data Collection. Senator Daniel Patrick Moynihan urged passage of a 
national family policy that would make it clear that the government 
should worry about the impact of its policies on families--of all 
kinds. The national employment policy led to the Economic Report of the 
President, produced by the Council of Economic Advisors. A new family 
policy could lead to a similar report presenting to Congress and the 
Nation the economic, family and child well-being of the American 
family, providing a benchmark for policymaking.

    Senator Alexander. Thank you very much, and thank you 
especially for the historical perspective. We can always learn 
from history.
    Your point in going back to the agricultural age, when 
families worked together and worked in the same place 
basically, which is a lot of what we're discussing here. We are 
discussing the workplace and families. So we were having this 
discussion 100 years ago. We might still be having it, but the 
workplace would be the same place that the family lives, and 
the responsibilities were divided, I guess, in a very 
stereotypical way then between the father and the mother and 
the kids, all of whom worked. But it was a very different set 
of situations. Then the World War II situation, which I 
mentioned earlier, was a reminder that, when we have to, we can 
make sudden adjustments and support families in the workplace.
    What I would like to do in a few minutes of questions is 
focus on the job of being a parent. It's a little bit different 
way of talking and thinking about a family-friendly workplace, 
and it is not the only issue in a family-friendly workplace.
    In thinking of history for just a moment, my sense of 
things is that a half century ago we placed a higher value in 
this country on the job of being a parent, that taxes were 
lower, neighborhoods were safer, the family structure was 
somewhat different. I suppose one reason might be that there 
were more people working at the job of being a parent.
    Isn't there some dramatic change in the last 50 years 
between the percentage of Americans who are parents and the 
percentage of Americans who aren't? Do either of you have those 
statistics?
    Ms. Galinsky. I do, but I have them back there. But in the 
workforce itself, the percentage of people who are parents is 
much lower, and that is because the workforce is aging and the 
number of children has gone down a bit.
    But, what I think we have seen is we have moved from a 
sense where your job defines you, your job is your identity, 
your job is your value, your job means you're important. 
Particularly after 9/11, polls are showing people being much 
more family oriented, so I think this puts the people in kind 
of a double bind, because it is clear that you should pay 
attention to your priorities, that life is more fragile than we 
used to think it was, and at the same time people are very 
worried about losing their jobs. So, it is hard to act on your 
values.
    I feel like there is almost this dual going on inside of 
people, men as well as women. The national study of the 
changing workforce has shown a huge increase in father 
involvement. The time that mothers spend with their children 
and the time that fathers spend with their children on workdays 
has narrowed considerably to about 48 minutes between them. 
Fathers have increased their time considerably in the last 25 
years. Thirty percent of mothers report that either they and 
their spouse take equal responsibility for their children, or 
that the husband takes more. So, that's one out of three.
    This is very much--although women tend to take the major 
responsibility for children, and that remains true. You do see 
fathers increasingly wanting to be part of their children's 
lives, not to come home and hide behind the paper. They are 
much more involved and they care more. So, this is an issue for 
men and women.
    But, they are battling within themselves. You know, the 
dual earner role, there's a provide for your family role and 
the take care of your family role.
    Senator Alexander. Ms. Kornbluh.
    Ms. Kornbluh. The only thing I would add to that is that it 
is harder for families to get ahead right now, that we had 
dramatic increases in median income for families in the decades 
right after the war. That slowed dramatically. So, I think 
parents have been throwing more and more hours on the fire in 
order to keep their families' income increasing, as the 
American dream would say they want to. So, I think that really 
lends itself to what Ellen is talking about, that if you 
believe your job is to give your child a better economic future 
than you had yourself, that means you and your spouse--or just 
you if you're a single parent--have to work harder and harder. 
And, because these jobs don't come in bite-sized pieces, that 
can often mean dramatic increases in work.
    But, I don't want to underestimate, I think the economic 
issues are terribly important, but I don't want to 
underestimate the noneconomic issues that you may be alluding 
to.
    I just noticed a headline that said alcohol advertising is 
way up, directed to children, and I think there are a number of 
other things going on in society, you know, that are separate 
from these economic issues. People value their children but, of 
course, it has become difficult to place those values in 
context with commercial values.
    Senator Alexander. We heard a great deal over the last 15 
years as we entered the so-called ``information age,'' that 
this would create a sort of revolution that might be helpful, 
in that more people would be able to work at home and that 
would mean there would be less conflict between the workplace 
and the place where one lives when the job of being a parent 
comes up. You mentioned a little bit about that.
    What did you find out about that? Are we finding that one 
or both parents are able to work at home as a way of spending 
more time as a parent or not?
    Ms. Galinsky. Well, two percent of employees work at home 
as their regular place of employment. That is their main place 
of employment. I'm talking about wage and salary people, people 
who work for someone else. Nine percent spent part of every 
week working at home. It is regularly scheduled time at home. 
So, it is 89 percent who don't and 11 percent who do.
    I actually looked at the impact of tele-work on children in 
the ``ask the children'' studies, and I found some interesting 
results. In many ways, it is really quite wonderful. But, 
because you are right there, it also can be hard. You can feel 
more pulled. There are no barriers between should you do this 
for work or should you sit down at the kitchen table and help 
your kids with their homework. So, I found mothers and fathers 
reporting high levels of conflict between their work and family 
life.
    The kids, when I looked at the kids, did not see that in 
their mothers. They felt that their mothers were really there 
for them, in kid speak, in kids language. But, they did feel 
that their fathers--they could feel the tension in their 
fathers, which is interesting, because both mothers and fathers 
felt that mothers seemed to be able to shift focus and focus on 
their kids. So, it is an incredible solution, but it also 
depends on how you handle it. That is, you have to decide what 
your boundaries are.
    I agree with Karen completely, that this is not a personal 
problem, that this is a societal issue, and certainly many more 
people want to work at home and they should be helped to do it. 
But we're battling a lot of assumptions here, too, about if we 
don't see them, how do we know if they're working and, you 
know, give them an inch and they'll take a mile----
    Senator Alexander. Did your research show that more people 
would prefer to work at home? I think that is what you said 
earlier.
    Ms. Galinsky. Very strongly, yes. I think it was 43 
percent----
    Senator Alexander.--who would prefer to do some work at 
home?
    Ms. Galinsky. Would prefer to do----
    Senator Alexander. Only 11 percent are doing some work at 
home.
    Ms. Galinsky. Of the 89 percent who don't work at home, 
there is two-in-five who would prefer to have regularly 
scheduled hours. I'm not talking about bringing work home, 
which tons and tons of people do. Increasingly, you know, 
people carry their office home if they have that kind of job 
and carry it back to work the next morning, or do their e-mail 
and so forth.
    Senator Alexander. Well, it doesn't sound like 11 percent 
is a high percent, but, in our workforce in America, that would 
be, with 129 million people working, that would be a lot of 
people, 13 or 14 million. What you are saying is 40 or 50 
million people would like to do more of the work they now do 
outside the home in the home.
    Ms. Galinsky. In the home, particularly parents of 
teenagers, who have learned that those after school hours are 
the times when kids get in trouble.
    It is also, by the way, more than double. The number of 
people who work at home full time went from .7 percent to 1.7 
percent, or 2 percent, just in the last 5 years.
    Senator Alexander. So, that's a million, million-and-a-half 
people.
    Ms. Galinsky. Yes.
    Senator Alexander. That's a lot of people.
    Ms. Galinsky. Right. So it has been a big increase.
    Ms. Kornbluh. One thing just to add to that, a topic that 
is not before this committee. But, despite the promise of 
telecommunications and the availability of broadband in large 
businesses, it is not as available in small businesses and 
certainly not to individual homes, so, one advantage of pushing 
that technology and making sure it is available at home would 
be--in addition to telemedicine and entertainment--would be the 
ability to work more easily from home. It is now still 
difficult in many places to get affordable broad-band access.
    Senator Alexander. I am very involved in that issue on 
another front.
    I want to get on to the next panel, but you were very 
helpful in your testimony in making some specific suggestions. 
Of course, we have lots of things to consider here at the same 
time we're in a global marketplace. All businesses are working 
hard to keep costs down, so that jobs will stay here instead of 
going to China and Mexico, so all of that comes in.
    Plus, we Americans like to work. Our family moved to 
Australia after I was Governor in 1987, and because we had been 
so busy, my wife felt we should take 6 months off, which we 
did, which most families can't. But, we found in Australia most 
families do. They actually have a national law that requires 
companies, every 10 years, to give employees 6 months off. This 
goes back to the time when Australia was founded, and it would 
take 2 months to sail back to England, 2 months to visit with 
the relatives, and 2 months to sail back. That's a national 
law.
    You suggested some things that don't cost much, at least in 
taxpayer dollars, that might make some difference. So, let me 
ask each of you this question.
    If you were focusing just on the Federal Government--
because this is a societal problem, but the Federal Government 
is a big part of society--from your list or from other ideas, 
if you were a United States Senator, what would be the first 
two or three things that you would suggest we go to work on to 
help create more flexibility in the workplace and value more 
highly the job of being a parent?
    Ms. Kornbluh. I guess where I would start in terms of 
importance, but not ease, definitely, would be health care, 
somehow getting over this problem that if you need a flexible 
job, you put the ability to get health care----
    Senator Alexander. Would disconnecting health care coverage 
from the workplace be one way to do that? I know the New 
American Foundation has some ideas about that.
    Ms. Kornbluh. Yes, certainly. That would be one way. And, 
then there are other ideas for how you could provide--you could 
do it more incrementally. You could do it through tax 
incentives or providing the ability to provide group health 
insurance to workers who can't get it through their employers. 
But, certainly if it was citizen-based, that would be another 
way to do it. That would require a wholesale change.
    Things that are on the easier side to do would be some of 
these issues of working with employers to help them get over 
the hump and do what they can do in terms of creating these 
awards, working with companies to provide tax incentives. I 
know there is a great deal of discussion about leave policies, 
so that at least parents, when they really need to be with a 
sick relative, whether it is an older parent or a child, would 
be able to get the time off.
    Senator Alexander. I believe you suggested the Malcolm 
Baldrige type of award for companies that do the best job of 
creating a family-friendly workplace. I know many companies who 
ordered their whole existence around trying to win the Malcolm 
Baldrige award, and the goal there was quality. Any more 
thoughts about that?
    Ms. Kornbluh. I think during that whole quality--I will let 
Ellen answer more fully, but during that whole move toward 
quality, there was a sense among American businesses at first 
that it's going to cost me money to train my workers and reduce 
my number of defects to meet these quality standards. Why would 
I want to? It is going to be more costly to the bottom line.
    I think some of the leaders in the business schools and in 
the most forward-looking companies realized that no, it is 
going to improve American companies' competitiveness and bottom 
line if they implement these quality standards and spend a 
little money upstream, and through awards like that, through 
activities by the business community and business leaders and 
the Council on Competitiveness and elsewhere, they spread that 
gospel and I think it is now very widely understood. Ellen is 
starting that work in the area of flexibility, as has Working 
Mother magazine.
    Ms. Galinsky. Well, you will hear from Carol Evans on what 
an enormous incentive these awards are. I don't think it is the 
only solution, but I do think it is an important solution.
    We decided to pilot this notion of awards, particularly 
focusing on small and mid-sized companies, because most 
Americans, as you know, work in smaller companies. We are going 
to pilot these in eight communities, working with an affiliate 
of the Chamber of Commerce. We are doing business forums and 
will be giving awards. We see that as a platform to taking 
these awards more national, including small and mid-sized 
companies in them.
    We do a benchmarking study. We do a study of employees, but 
we also do a study of employers, called the Business Worklife 
Study, and we are going to benchmark these awards to see 
whether, in fact, they do bring about change.
    On the policy side, if I had to start somewhere, I guess I 
would start two places. One is really looking at reduced hours, 
looking at the wage penalties. In our study, 61 percent of 
employees that worked for companies that employed part-timers 
felt that they didn't receive the same kinds of wages on a pro 
rata basis. That is, if you worked part-time, you have a lower 
salary than you would if you were doing the same exact job 
full-time. I think that that is an area of important reform.
    We looked in the report that we published in the fall at 
the gap between women's and men's wages, and there still, of 
course, is this glass ceiling and wage gap, as we all know. We 
were able to statistically equalize the earnings of men and 
women by controlling for a few things, like part-time work. 
There were a number of other things that made a difference, but 
working part-time was one of the major predictors of the wage 
gap, if you just look at the wage gap on an hourly sort of 
basis.
    I also think that as the workforce ages--and grandparents 
are very important in raising children these days, too, so my 
definition of parents would include grandparents. I would 
really look at the majority of people who would like reduced 
hours, but the penalties that they have with reduced hours, and 
then ways of providing health care, whether they are innovative 
health care pools, the kind set up for freelancers, or whether 
it is changing the whole health care system, so that people who 
work part-time don't have to give up the health care for 
themselves and their families.
    Senator Alexander. Thanks very much to both of you for 
coming. We look forward to continuing this discussion.
    Ms. Galinsky. We do, too. Thank you.
    Senator Alexander. I would invite the second panel now to 
come to the table. Thank you very much.
    I am going to briefly introduce each of the witnesses, and 
then, we will start with Donna Klein and just go right down the 
table, if we may do that.
    Donna Klein is President and founder of Corporate Voices 
for Working Families, a nonprofit coalition of 46 corporations, 
committed to bipartisan public policy solutions and private 
sector practices that strengthen and support working families.
    Mr. and Mrs. Martinez, who are here, both work for the 
Marriott Corporation. They are going to tell their story of how 
flexible work environment helps them as they try to be what 
modern parents are, jugglers, with their family 
responsibilities.
    Joy Bunson is Senior Vice President and executive in charge 
of leadership and development for JPMorgan Chase. She has 
global responsibilities for their work life programs.
    Michael Shum is Director of Diversity and Workplace 
Effectiveness for IBM, with global responsibilities for IBM's 
worklife programs, and Carol Evans, who has been mentioned a 
few times, is the founder of Working Mother Media, and they 
publish--showing a fascination with lists in America. One of 
the lists we are most fascinated with is the 100 best companies 
for working mothers, which many companies compete for.
    So, I thank all of you for coming. You have all got big 
stories to tell, but if you could summarize your remarks maybe 
in five minutes each, then that will leave us more time for 
questions. We have a vote that will be coming up after 11:30, 
some 20 to 12:00, so we will have to end the hearing by about 
then.
    So, Donna Klein, thank you.

   STATEMENTS OF DONNA M. KLEIN, PRESIDENT AND CEO CORPORATE 
    VOICES FOR WORKING FAMILIES; ZOILA AND MANUEL MARTINEZ, 
  EMPLOYEES OF MARRIOTT CORPORATION; JOY BUNSON, SENIOR VICE 
  PRESIDENT OF HUMAN RESOURCES, JPMORGAN CHASE; MICHAEL SHUM, 
  DIRECTOR OF GLOBAL WORKFORCE DIVERSITY OPERATIONS, IBM; AND 
 CAROL EVANS, CEO OF WORKING MOTHER MEDIA, AND EDITOR, WORKING 
                        MOTHER MAGAZINE

    Ms. Klein. Senator Alexander, thank you for the invitation 
to appear before you today. I also thank you for your 
leadership in bringing the issues of working families before 
Congress.
    Corporate Voices is a nonpartisan, nonprofit partnership 
organization, created to bring that private sector voice into 
the public dialogue and to improve corporate practices with 
respect to working families.
    Since we began in 2001, we have grown to 47 company 
partners, 47 members, representing 4 million employees and $800 
billion in revenues, and 75 percent of our companies are from 
the Fortune 500, and our members have operations in all 50 
States.
    Corporate Voices member corporations are leaders in the 
work-family field. Twenty-one of these are on the Working 
Mother List that we talked about already this morning. Many are 
also recognized as Fortune Magazine's best places to work, as 
well as Fortune's most admired companies.
    But no matter how much they endeavor to meet the needs of 
their employees, they cannot accomplish it alone. Although our 
partner companies employ 4 million, this is a small percentage 
of the 137 million private sector American workers--actually, 
it is less than 3 percent--69 million of the 137 million work 
for medium and small size enterprises, those companies with 
less than 500 employees. The reality today is that only some 
workers in some companies and in some places have the support 
services they need to be both strong productive employees and 
caring parents.
    Unless communities provide for both pre-school and after-
school programs, there is no place for the children of 
employees to go. Without programs to help seniors continue to 
be as independent as possible within their own communities, 
employees cannot meet their obligations to their elderly 
relatives.
    Moreover, the lack of flexibility in work schedules holds 
employees to rigid patterns of work that do not reflect the 
variabilities and the in-the-moment problem solving required by 
today's work and family realities.
    Finally, we must make family support for low-wage workers 
more accessible by revising the application processes for 
advance EITC. It would be a simple solution, but it would help 
workers and their families avoid the potential financial crisis 
that one small mishap in their life creates. Some scheduling 
flexibility would mean a worker with a sick child would not 
have to feel threatened with the loss of a job. It would mean 
an entire household may not plunge into financial crisis when a 
car breakdown causes unavoidable absences from work and 
potential job loss.
    These realities have led to the work of Corporate Voices. 
We focus on four essential pillars that working families need 
and often do not have: early care and education for young 
children, as well as after school for older children; 
flexibility in the scheduling of work; supportive elder care 
policies and programs; and family economic security.
    Today this committee will hear from two of our corporate 
partners, providing detailed testimony on both elder care and 
the education and care of young children, and Corporate Voices 
is pleased to endorse their testimony.
    In each focus area, Corporate Voices is working to make the 
business case for private investment as well as public 
investment, to make it clear and visible. Working with our 
members and a wide circle of strategic partners, we disseminate 
and share what we learned about the potential return on these 
investments as core business practices. We share that learning 
with policymakrs, advocates, and the media. Our emphasis is on 
making the business case that improving the ability of 
employees to balance their work and family obligations is 
essential to improving employee and customer satisfaction, 
decreasing the costs of absenteeism and turnover, increasing 
retention and improving customer satisfaction--all of which are 
factors in increased productivity and shareholder value.
    Recent research shows these are strong correlations. 
However, this research has not yet influenced the work culture 
in most corporations. Worse, business and government support 
for programs and policies that working families must have lags 
behind the increasing prevalence of the these dual-earning 
families in the workforce.
    Additionally, despite valid research supported by 
considerable survey and anecdotal evidence, the conventional 
wisdom of the stock market has essentially dismissed the fact 
that employee satisfaction is a key determinant to a healthy 
bottom line. With few exceptions, Wall Street generally rewards 
the firms that take the hard line--laying off employees and 
decreasing benefits to meet quarterly profit targets, and 
labels those who do not do so as ``soft.''
    Recently--in fact, in March of 2004--in the article, 
``Costco's Dilemma: Be Kind to Its Workers, or Wall Street?'' 
the Wall Street Journal contrasted a gigantic retailer to 
Costco, tying Costco's relatively low stock price to Wall 
Street's perception of its overgenerous benefits package.
    Corporate Voices is working with a number of groups to 
develop a sound business case that can help to change the 
culture of the workplace and the reactions of Wall Street. For 
example, last May, Corporate Voices and the Business Roundtable 
released key principles of early education, ``A Call to Action 
from the Business Community.'' It articulates consensus among 
195 companies on the need for quality care for three- and four-
year-olds, and increasing an expanding roll for all 
stakeholders, both public and private.
    In the few minutes remaining, I would like to focus on just 
a couple of points. First, Corporate Voices and our partner 
corporations can be a resource to this committee as it begins 
to craft policy solutions by making available the innovative 
practices and the research of our companies. Today, we are 
releasing the report ``Increasing the Visibility of the 
Invisible Workforce: Model Programs and Practices for Hourly 
and Lower Wage Employees.'' By participating in this study, the 
15 companies that are profiled are demonstrating their 
commitment to educating policymakers and the greater business 
community about the wisdom of such supports.
    Second, we would like to share our suggestions on four ways 
that the Congress can provide leadership resulting in policies 
supportive to working families.
    First, simplify and promote the Earned Income Tax Credit 
and Advance Earned Income Tax Credit to increase family 
economic stability. For a minimum up front investment, 
employers can promote family economic security among low wage 
employees. This year, Corporate Voices released an EITC tool 
kit that was produced by employers for employer outreach. It 
educates employers on the pitfalls of for-profit tax 
preparation, motivates employees to use the IRS free tax 
preparation sites, and encourages employers to promote Advanced 
EITC.
    Second, we urge support for high quality pre-school for 
three and 4 year olds, and after-school programs for school-
aged children. As reflected in our statement of principles on 
high-quality early childhood education, such programs directly 
correlate into success in the K-12 system.
    Third, we urge the creation of a meaningful public dialogue 
over the laws that govern workers' flexibility. The workplace 
of today has evolved significantly, yet the laws governing 
workplace schedules have remained stagnant. Improvements are 
desperately needed that will allow increased flexibility for 
working families. We also encourage the inclusion of all 
stakeholders in this conversation--business, labor, families, 
and policymakers.
    We also urge the creation of a national commission on elder 
care. You will hear shortly testimony from IBM that the elder 
care problem is increasing rapidly and it will only intensify 
along with its cost to business. It is a national problem and 
deserves national attention.
    Corporate Voices feels that now is the time for elevating 
the deliberation on public policies to support the working 
families that keep America productive and strong. Neither 
working families nor the companies they work for can carry the 
full load. Government must become a partner if we are to reach 
the scale necessary to provide the services families need. They 
need them to be both productive employees and caring family 
members.
    I would like to introduce you to the Martinez family, who 
will talk about their challenges and how they work to overcome 
them on a daily basis. Mr. and Mrs. Martinez hold down the 
equivalent of almost three full-time jobs between them. They 
did not qualify for EITC in 2003. With nearly three full-time 
jobs, they were marginally over the eligibility threshold. This 
couple, and so many like them, work day in and day out to honor 
their commitments to their employer, Marriott, and to each 
other and to their children.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you.
    [The prepared statement of Ms. Klein follows:]

                  Prepared Statement of Donna M. Klein

    Senator Alexander, Senator Dodd and Members of the Committee, thank 
you for the invitation to appear before you today. We welcome this 
hearing and the leadership of you, Mr. Chairman, and this subcommittee 
in bringing the issues of working families before the Congress. I am 
Donna Klein, President/CEO of Corporate Voices for Working Families, 
and most recently, Vice President of Workforce Effectiveness at 
Marriott.
    Corporate Voices (www.cvworkingfamilies.org) is a nonpartisan, 
nonprofit partnership organization created to bring the private sector 
voice into the public dialogue and to improve corporate practice on 
issues affecting working families. Since we began in 2001, we have 
grown to 47 member corporations with 4 million employees and $800 
billion in revenues, 75 percent of whom are Fortune 500 companies. Our 
members have operations in all 50 States.
    Corporate Voices member corporations are leaders in the work-family 
field: 21 are on the Working Mother list of 100 Best Companies for 
Working Mothers. But no matter how much they endeavor to meet the needs 
of their employees, they cannot accomplish it alone. Although our 
partner companies employ 4 million employees, that is a small 
percentage of the 137 million private-sector American workers (actually 
.029 percent); 69 million of whom work in small- or medium-size 
enterprises. The reality today is that only some workers in some 
companies in some places have the support systems they need in place to 
be strong productive employees and caring parents.
    Unless communities provide for both pre-school and after-school 
programs, there is no place for the children of employees to go. 
Without programs to help seniors continue to be as independent as 
possible in the community, employees cannot meet their obligations to 
their elderly relatives.
    Moreover, the lack of flexibility in addressing commuting needs in 
scheduling work and meetings holds employees to rigid schedules that do 
not reflect the differences in today's work and family realities. 
Finally, we must make family support for low-wage workers more 
accessible by revising the application for Advance EITC so that workers 
and their families no longer live one small mishap away from financial 
crises others might be able to shrug off more easily. Worker sick leave 
underwritten by some schedule flexibility means a sick child will not 
threaten the loss of a job or that an entire household can be plunged 
into financial crises when a car breakdown causes unavoidable absences 
from work.
    These realities have led to the work of Corporate Voices. We focus 
on the four essential pillars that working families need and often do 
not have: early care and education for young children as well as after-
school for older children; flexibility in the scheduling of work; 
supportive elder care; and family economic security. Today this 
committee will hear from two of our corporate partners providing 
detailed testimony on both elder care and the education and care of 
young children. We are pleased to endorse their testimony.
    In each focus area Corporate Voices is working to make the business 
case for private investment and public dollars clear and visible. 
Working with our members and a wide circle of strategic partners, we 
widely disseminate and share what we learned about the potential return 
on these investments as core business practices with policymakers, 
advocates and the media. Our emphasis is on making the business case 
that improving the ability of employees to balance their work and 
family concerns is essential to improving employee satisfaction, 
decreasing the costs of absenteeism and turnover, increasing retention 
and improving customer satisfaction--all factors in increased 
productivity and shareholder value.
    Recent research shows that employee satisfaction is directly 
related to increased productivity, customer satisfaction and 
shareholder value. However, such research has not yet influenced the 
work culture in many corporations. Worse, business and government 
support for programs and policies that working families must have has 
lagged behind the increasing prevalence of the workforce.
    Additionally, despite valid research supported by considerable 
survey and anecdotal evidence, the conventional wisdom of the stock 
market has essentially dismissed the fact that employee satisfaction is 
a key determinant of a healthy bottom line. With the exception of 
selective mutual funds focused on socially responsible investing, Wall 
Street generally rewards the firms that take the ``hard line''--laying 
off employees and decreasing benefits to meet quarterly targets and 
labels those who do not as ``soft.'' Recently, (March 26, 2004) in the 
article, ``Costco's Dilemma: Be Kind to Its Workers, or Wall Street?'' 
the Wall Street Journal contrasted Wal-Mart and Costco, tying Costco's 
relatively low stock price to Wall Street's perception of its over-
generous benefits package.
    Corporate Voices is working with a number of groups to develop a 
sound business case that can help to change the culture of the 
workplace and the reactions of Wall Street. For example, Corporate 
Voices and the Business Roundtable developed ``A Call to Action from 
the Business Community: Why America Needs High-Quality Early Childhood 
Education.'' In addition, we are consolidating proprietary data from 
our member companies and surveying their practices and experience to 
make a more compelling case for private and public investment in the 
workers of America.
    In the few minutes remaining I would like to focus on two points: 
First, Corporate Voices and our partner corporations can be a resource 
to this committee as it crafts policy solutions by making available the 
innovative practices of our member companies. Today we are releasing 
the report ``Increasing the Visibility of the Invisible Workforce: 
Model Programs and Practices for Hourly and Lower Wage Employees.'' 
This pertinent report was authored by Dr. Leon Litchfield of Boston 
College. By participating in this report, the companies profiled are 
demonstrating their commitment and educating policymakers along with 
the greater business community contemplating workplace supports.
    Second, we would like to share our thoughts on four ways that the 
Congress can provide leadership resulting in policies supportive to 
working families. We would be happy to provide the committee with 
additional information on these recommendations:
    l. Simplify and promote the Earned Income Tax Credit and Advance 
EITC to increase family economic security. For a minimum upfront 
investment, employers can promote family economic security among low 
wage employees. This year Corporate Voices released an EITC Tool Kit 
that was produced by employers, for employer outreach. It educates 
employers on the pitfalls of for-profit tax preparation; motivates 
employees to use IRS free tax preparation sites; and encourages 
employers to promote Advance EITC enrollment.
    2. Support high-quality pre-school for 3- and 4-year-olds and 
after-school programs for school-aged children. As reflected in our 
statement of principles on high-quality early childhood education, 
high-quality early childhood education programs are important to 
families and business. High-quality preschool and after-school programs 
can make a difference in social and academic school readiness.
    3. Create a meaningful public dialogue over the labor laws that 
govern workers schedules. The workplace of today has evolved 
significantly, yet the laws governing workplace schedules have remained 
stagnant. Improvements are desperately needed that will allow increased 
flexibility for working families. We encourage the inclusion of all 
stakeholders in this conversation: business, labor, families and 
policymakers.
    4. Create a National Commission on Elder Care. As you will hear in 
testimony by Mike Shum of IBM, the elder care problem is increasing 
rapidly and it will only intensify. Further, it is a major cost factor 
for business. Individuals are struggling with providing the care that 
their elderly or disabled family members need--often from a great 
distance and at a cost to their productivity and career opportunities. 
All too often public discussions have focused solely on the elderly or 
disabled citizen without giving attention to the caregiver and the 
economic and business impact of the difficulty of providing such care 
while being a productive employee. It is a national problem and 
deserves national attention from all involved.
    Mr. Chairman, Corporate Voices feels that now is the time for 
deliberation of public policies to support working families in their 
commitment to keep America's productivity strong. Neither working 
families nor the companies they work for can carry the full load; 
government must become a partner if we are to reach the scale necessary 
to provide the services working families must have to be both 
productive employees and caring family members.
    Finally, I would like to introduce you to the Martinez family who 
will talk about their challenges and how they work to overcome them on 
a daily basis. Because Mr. and Mrs. Martinez hold down the equivalent 
of almost three full-time jobs between them, they are now over the 
eligibility threshold for the EITC. They have two young children ages 7 
and 8 at home and have not been able to afford the quality child care 
they would like their children to receive. This couple, and so many 
like them, work day-in-and-out to honor their commitments to their 
employers, each other, and their children who will 1 day be employees 
themselves. I believe you will find their story to be a compelling one. 
Thank you, Mr. Chairman.

    Senator Alexander. Mr. and Mrs. Martinez, welcome.
    Mrs. Zoila Martinez. We are here to talk about our day 
care. We have three kids. One is 21 years old, who is in 
college, and we have two boys, who are 7 and 8. When they were 
younger, we were looking for day care for them, what we were 
looking for was so expensive that we cannot afford to put them 
in day care and we have to look for something cheaper that we 
can afford to pay.
    We paid $88 for both of them each week, and really, the day 
care they attended didn't make me happy to have them there, 
because there weren't enough quality teachers who can take care 
of them very well.
    When I came and picked them up from the school, they were 
wet, dirty, and nobody was paying attention to them. Really, I 
was feeling so bad. I guess you, too, when you see little kids 
wet and dirty, you will feel the same way, the way I was 
feeling, you know.
    It is really hard to be working, both of us, at the same 
time. Where we're working at now, we have a facility that I can 
request days off and my husband can pick them up at the school. 
Now, they are in the school in second and first grade. I can 
request my days off to put them at the public school, 2 days 
when I'm off at work on Thursday and Friday, and my husband can 
do it on Tuesday and Wednesday. But still, the public school 
does not have enough teachers to take care when they are out 
playing or when they go for activities.
    Sometimes they come in after school and we need more people 
who can take care of them there at the school. We don't have 
that. We have to rush from work to pick them up from school. 
Sometimes, we have to rush them to try to catch the bus, and 
sometimes the bus passes by. It is frustrating, you know.
    Senator Alexander. Mr. Martinez, would you like to add 
something to that?
    Mr. Manuel Martinez. Yes. Good morning, Senator Alexander. 
I would like to add something else.
    One of the worst situations is in the summertime after 
school. We have the problem of who's going to take care of 
them. One of those problems is when they have a half-day, for 
example at 12:00 o'clock, and we get off from work at 3:00 
o'clock. That's one of the things that make us have to call for 
someone to take care of them and we have to pay extra money for 
that.
    We would like to have something where----
    Ms. Klein. Manuel, would you like to tell Senator Alexander 
exactly how much you have to pay to have someone walk your 
children to school or for that half-day of care?
    Mr. Manuel Martinez. Yes. Most of the time we pay like 
about $30 for the half day----
    Mrs. Zoila Martinez. Just to walk the kids to school.
    Mr. Manuel Martinez. Yes, to the school. Of course, they 
don't say we have to pay this, but we have to because, who 
knows, the next day we may see the same situation, or like 
almost any day.
    I work like at two places, and it is very hard for us to 
take care of them.
    Mrs. Zoila Martinez. Sometimes, we have to sacrifice our 
daughter. She is in college, you know, and sometimes we have to 
tell her that today, you know, we can't take the kids to the 
school and you are going to do it, or before the year she 
started her college, she had to make a schedule and she is 
asking us, okay, mom, these are the days I can take the kids to 
the school. I say, okay, which is sometimes Mondays or 
sometimes Friday, but most of the time when I'm over there 
working at the Marriott company, I'm off Thursday and Fridays. 
Sometimes my mother, too, or my daughter has to do something, 
and we cannot depend on them. We're the ones who have to take 
care of them. I cannot sacrifice my daughter because of my kids 
or my mother because of that. My mother is a working person, 
too. She works and cannot stay home.
    But, if I can have my mother home, of course, I have her 
stay with the kids or take the kids to the school. But 
unfortunately, we can't do that.
    Senator Alexander. Thank you very much for your coming here 
and for telling your story. That's a great help.
    [The prepared statement of Mr. and Mrs. Martinez follows:]

            Prepared Statement of Zoila and Manuel Martinez

    My name is Zoila Martinez and this is my husband, Manuel Martinez: 
We live in Washington, DC., and own our own home.
    We have three children, a daughter, 21, and two sons, 8 and 7. I am 
a lobby attendant now and have been with Marriott Metro Center's 
Housekeeping Department for 15 years. I have also worked in hospitality 
since I came to this country from Guatemala 19 years ago. I am now a 
U.S. citizen. I try to help my mother, who has diabetes, with doctor's 
appointments and anything that requires translation from Spanish to 
English. My mother still works and lives independently, but I do help 
her many times a week.
    My husband, Manuel, who is originally from El Salvador, has been a 
member of the bell staff at the Marriott Metro Center for 3 years. 
Prior to that, he worked with the valet staff at the hotel for a number 
of years. He works full-time, 5 days at the Marriott and an average of 
four shifts per week at a Sheraton Hotel as a driver.
Company Support
    In 2003, we did not qualify for EITC. We needed to use some of the 
community services that are offered from time-to-time. For instance, an 
agency helped us in Spanish with the paperwork, application and to 
understand the financial process to buy our home.
    The greatest support Marriott offers us is flexibility. For 
example, I was promoted from housekeeper to lobby attendant. This means 
I can work from 6 a.m. to 2:30 p.m. I wanted this position so I could 
be at home for my boys when they leave school because we could not 
afford an after school program.
    My husband and I now work at the same hotel. Manuel's schedule 
allows him to walk the boys to school and I can meet them when school 
is over. We both use public transportation to get to work and take the 
boys to and from school. It gets very stressful when the buses run late 
or we miss the regular bus we are used to taking. It means Manuel or I 
could be late for work or worse, I would be late in picking my sons up 
at school. I worry a lot about getting our sons at school and taking 
them home. I do not like for them to have to wait for me alone, without 
an adult. Too many bad things could happen.
    I change my work schedule when school is closed for a half or full 
day. I try to coordinate with my mother, my older daughter or a friend 
to watch the boys for me. If I cannot make other arrangements, I will 
have to miss work. However, Marriott supports me and Manuel, and they 
do not make us feel bad about needing to be home to care of our 
children.
    Along with our schedule flexibility, both Manuel and I appreciate 
the medical benefits: health and dental, short and long-term 
disability, and life insurance, that we have with Marriott. We also 
participate in profit sharing and have credit union accounts. All these 
things are very important to us and our family.
    We used the credit union to get a loan for a used car. We do not 
use the car for work because it is too expensive to park.
    When our boys were younger, I looked for quality daycare locations 
for them. But we could not afford the tuition ($170-$200 per week). I 
finally put them in a community daycare at a Christian center and we 
paid $88 per week total for the two of them. I really felt bad about 
them being there because I wish we could have put them in a better 
place. Sometimes when I picked them up they were wet or had dirty 
diapers, and the child care giver did not seem to care. It made me feel 
sad to leave them and they said they did not like it there. As the boys 
became older they would complain and tell me that other children pushed 
them around and hit them. Clearly, adult supervision was not good 
enough.
    Our sons are both school age now. Our biggest challenges are 
overseeing the quality of their schooling and arranging for care when 
school is closed. The teacher to student ratio at school is not good 
and what is offered for after school and summer are of too low a 
quality for what we can afford to pay.
    During the summer, we have more problems because the only program 
we can afford is at a school for half-a-day. I am always trying to work 
with my husband's days off, my mother's schedule, and my daughter and 
friends. Sometimes we need to pay someone $25 to walk their kids to 
school. Or we may need to pay someone about $30 for half-a-day. It all 
depends on who is doing what and how much money they need.
    Another challenge we often face is when our hours are cut. Then it 
is very hard for us to make ends meet. The years 2001 and 2002 were 
very hard but our hours are back to normal now. At another time, we 
both had our hours cut. We each went to our managers to talk to them 
and the hotel was able to increase both our hours enough so that we 
could make ends meet.
    We do not feel like we need to sacrifice our most basic life needs 
for our family because of our insurance coverage. When times are tight 
with money, we do not go on our annual vacation to see our families in 
Guatemala and El Salvador. We cannot imagine retiring right now because 
we do not have the money. We are working on our profit sharing to help 
us when the time comes. We do not buy Marriott stock because we do not 
have extra money to do that. Our daughter is paying for her own 
education at the University of Maryland with some help from her 
employer (the government). She works full-time to pay for college and 
we are very proud of her.
    Thank you for allowing us to testify today.

    Senator Alexander. In a moment, we will hear from the other 
witnesses, but first I have a statement here from Senator Chris 
Dodd, who may not be able to come today, but who is the ranking 
Democratic member of the committee and has been a strong leader 
on these issues for a long, long time. We work together on the 
issues.
    I would like to submit for the record his statement.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    Mr. Chairman, I want to thank you for holding this hearing 
today about balancing work and family. This is a critical issue 
for millions of Americans, particularly the impact on children, 
as parents struggle to do their best at work and at home.
    I commend your efforts, Mr. Chairman, to highlight the 
importance of this issue and I look forward to working with you 
in the months ahead to further examine how we can build more 
effective partnerships to help parents raise their children.
    I also want to thank today's witnesses for the dedication 
and devotion to better workplace practices to enable parents to 
succeed in their jobs and also to have quality time for their 
children.
    I have long been interested in improving the work-family 
balancing act that so many parents juggle on a daily basis. 
Particularly as a parent of a young child, I know first-hand 
how hard it is to balance a demanding job while still feeling 
as if I have enough quality time with my daughter.
    It was over 20 years ago that I first introduced the Family 
and Medical Leave Act. Finally signed into law in 1993, more 
than 35 million Americans have taken family and medical leave. 
I have also introduced legislation to provide States with funds 
to create paid leave policies so that those who cannot afford 
to take leave under the Family and Medical Leave Act, since 
it's unpaid leave, can do so.
    Despite the many Americans the Family and Medical Leave Act 
has helped, too many continue to be left behind. Too many 
continue to have to choose between job and family. The facts 
are clear: while family and medical leave is one aspect of 
workplace flexibility, access to flextime, access to sick leave 
and vacation leave, as well as paid leave are also important in 
promoting a healthier balance between work and family.
    Times have changed over the years. More and more mothers 
are working. While only 27 percent of mothers with infants were 
in the labor force in 1960, by 2001 that percentage rose to 
nearly 55 percent. Employees are working longer hours today. 
Men now work nearly 50 hours per week on average while women 
average over 40 hours. With increased access to technology such 
as computers, cell phones, pagers, and blackberries, the line 
between work and home can often be a blur.
    It is no wonder that 67 percent of employed parents say 
they don't have enough time with their children.
    I know we will hear today about encouraging practices and 
trends to encourage or promote a better balance for parents 
raising children, and also, for parents caring for elderly 
parents--a growing phenomenon that my generation faces.
    Other major industrialized nations have implemented 
policies that do an outstanding job of promoting early 
childhood development and family caregiving. At least 128 
countries, including not only industrialized nations but 
developing nations--from Algeria to Zimbabwe--provide paid and 
job-protected maternity leave, with 16 weeks the average basic 
paid leave.
    Compared to these nations, the United States is far behind 
in efforts to promote the wellbeing of our families.
    This hearing today is only one of a series of hearings we 
will have about raising children and balancing work and family. 
I am hopeful that we will be able to work in a bipartisan 
manner to draft legislation to promote greater access to paid 
sick leave, paid family and medical leave, and also greater 
incentives for employers to offer more flexible work schedules.
    When we talk about a more compassionate America, nowhere is 
that more evident than in our caregiving leave policies. No one 
should have to choose between work and family. Women and men 
deserve to take leave when family or health conditions require 
it without fear of losing their job or livelihood. Parents need 
to be able to work and have quality time for their children--
not just when their children are sick, but also to become 
involved in their children's lives.
    We must not simply pay lip service to the goals of family 
unity and of a healthy workplace. Instead, we must actively 
work to make these goals a reality for every American Family. 
In my view, it is simply impossible to proclaim a belief in 
``family values'' if our laws do not value families.
    I look forward to today's testimony. And, again, I want to 
commend the chairman for his interest in this area and for 
holding this hearing today.
    Senator Alexander. We are delighted to have Senator Clinton 
with us today. I wonder if you would like to make some 
comments, Hillary.
    Senator Clinton. I want to thank you, Mr. Chairman, for 
holding this hearing. I apologize that I couldn't get here in 
time for the first panel, but I want to have a chance to hear 
this panel. I know how important these issues are, and I 
especially appreciate the leadership of many in the business 
community who recognize the tough implications of making sure 
that there is some kind of structure to support working 
families.
    I particularly want to thank Mr. and Mrs. Martinez for 
being here to share their story.
    Senator Alexander. Thank you, Senator Clinton.
    Ms. Bunson is next, and then we will go to Mr. Shum and to 
Carol Evans.
    Ms. Bunson. Good morning. First, I would like to thank you 
for giving JPMorgan Chase and myself the opportunity to talk 
about this critical issue of early childhood education.
    I think that I could not demonstrate in any better way than 
the story that Mr. and Mrs. Martinez just told, on how 
crucially important it is to people who work in the United 
States to be able to be productive and effective at their jobs 
and still be valued as parents.
    In the interest of summarizing my remarks, I think you know 
about all of the research that demonstrates that high-quality 
early childhood education matters, that it gives children an 
advantage in starting kindergarten that without some may never 
actually be able to recover in terms of lost wages, in terms of 
their ability to stay in school, in terms of their ability to 
really contribute to their full potential in society.
    So we at JPMorgan Chase, having heard from many employees 
with stories, perhaps a little bit like the Martinez family, 
decided to invest in early childhood education for our staff. 
What we thought would make the most sense was to really go out 
and ask people.
    Our strategy and our story really begins as far back as 
1990, when we happened to be moving lots of people from Wall 
Street to a facility in downtown Brooklyn. We thought we would 
take a step back and say to people, gee, you know what? What's 
going to actually make this a great place for you to work, 
because we would really like you to come with us.
    A little bit to our surprise, the issues that surfaced were 
really around balancing their work and their home lives. I 
think then we called it work and family in 1990. They said to 
us, you know what? We really need some help here. This is not 
something that companies have talked about in the past. We 
would really like you to make some investment. So, we ask them 
what. Gee, what kind of investments would make the most sense 
for you?
    Again, to our surprise, by asking people, what they said 
was, you know, as hard as it is--and I think you heard this--we 
can get to work every day because we have child care. But you 
know what? When our child care system breaks down in some way, 
we have no options. There are no options in our communities. We 
have to take three or four or five subway stops away from our 
workplace to drop our child off at our mother, so that she can 
watch them for three hours, and then have to worry that, when 
she has to go to her job, they get appropriately dropped off 
with somebody else.
    So, if you are going to make any investment in child care 
for us, please make it in providing us with options around 
back-up care, and please provide us with options around summer 
care. In fact, that's where we need help the most.
    What they also told us is that, on average, they miss 3 
days a year of unscheduled work time because of child care 
breakdowns. So, from every perspective, from an employee 
perspective, which is what you just heard today, and from an 
employer perspective, where it is important for us to have 
people coming to work, making this investment in early 
childhood education really made sense for us.
    So, in 1992, we opened our first back-up child care center 
at the Metrotech facility, which is in downtown Brooklyn, NY. 
Today, we have 16 back-up child care centers in communities 
around the United States. We offer up to 20 days of free back-
up child care to our employees, in addition to what we kind of 
call kind of transition care. So, we offer 8 weeks of full-time 
care to employees who are training to work after either having 
or adopting a baby--we call it the ``8 week advantage''.
    We offer employees 8 weeks of full-time child care if they 
are relocating from one of our facilities to another and 
they're in that critical transition time when they're trying to 
find other help. We have extended time for employees whose 
partners or spouses are serving in Iraq. So, we really try to 
use our back-up child care centers as a way to support all of 
the needs that full-time care, as reliable as it is sometimes, 
can't provide for people.
    But, no way can I sit here and say to you that we have 
provided for all of our employees' diverse needs in terms of 
child care. We were very specific in terms of focusing on back-
up care. With that, we are also specific about investing in the 
communities in which our employees live and work, in terms of 
increasing the quality and supply of child care, both through 
our foundation and both through supporting the development and 
the building of new child care centers, through the work within 
our child care centers of programs like the CDA accreditation, 
which we offer to community workers, and through a series of 
efforts that we've done in homeless shelters and in battered 
women shelters in communities all over the United States, where 
we have helped to provide safe places that are appropriate for 
children of all ages.
    So for us, what we are trying to do is couple a strategy 
around back-up care with a strategy around increasing the 
supply and quality of child care in communities.
    But, we know we can't do it by ourselves. One of the 
reasons we were so pleased to be here is to give us a chance to 
say that one of the gaps that our employees have in almost 
every community is the ability to find affordable quality child 
care. To the extent that there is something the Federal 
Government can do to enable people like the Martinez family, 
people like our own employees, to have better access to 
quality--and I will talk about quality for a minute, because 
for us, quality has been a cornerstone of all of our child care 
efforts.
    Ten of our back-up child care centers are nationally 
accredited, and the other six are in the process of getting 
accredited. I think you know only six percent of child care 
centers nationwide receive national accreditation, and as we 
give our employees the opportunity to participate in child care 
in our centers, we also give them an opportunity to learn about 
what quality child care is.
    But, I will say that that's a little bit of a mixed 
blessing, because, in fact, the quality they see in our centers 
is often not found in the communities in which they live and 
work. To the extent that, again, as you look to find 
opportunities to make a difference in the world of working 
families, we think that making a difference in terms of 
providing more and better child care that is affordable to all 
would make a huge difference in the lives of people who work in 
this country.
    Thank you.
    Senator Alexander. Thank you, Ms. Bunson.
    [The prepared statement of Ms. Bunson follows:]

                    Prepared Statement of Joy Bunson

    Good morning. I'm Joy Bunson, senior vice president of Human 
Resources at JPMorgan Chase, and I'm pleased to be here this morning to 
talk to you about the important issue of early childhood education. 
I'll share with you some of things we're doing at JPMorgan Chase for 
our own employees--but also some of the studies we've participated in 
and some of the investments we're making to improve the quality of 
child care and early childhood education across the U.S. As you'll hear 
we're committed to doing this for very selfish reasons: we believe it 
gives us a tremendous leg up on attracting and retaining the best 
employees and, as I'll talk about, we have the employee feedback and 
survey data to back that up. But we also do it because, frankly, it's 
the right thing to do. Studies have shown that high-quality early 
childhood education makes a difference in terms of children's school 
performance, the chance they'll stay in school, and their lifelong 
earnings potential. It's simply an issue too important to ignore.
    First, studies show that the U.S. needs high quality early 
childhood education. A study sponsored by The Business Roundtable, an 
association of 150 CEOs across the U.S. and Corporate Voices for 
Working Families, found that by the time children enter kindergarten, 
there's already a wide gap in their readiness for school--and that 
those at risk continue to fall further and further behind.
    Children of families of lower socio-economic status enter school 
with much poorer skills in the major areas of development and 
learning--there can be up to a 60 percent difference in achievement 
scores between those from at risk groups and those in the highest 
socio-economic group.
    There are significant differences in average vocabularies--how 
quickly students gain letter recognition, counting, reading and math 
skills. And these children remain further behind children with fewer 
at-risk skills. The positive news is that children--from both low and 
high socio-economic status families--who attend high quality early 
childhood education programs score higher on measures of skills and 
abilities that are important for school success. Cost-benefit analysis 
of several programs have found a cost savings of $7 for every dollar 
invested--supporting the notion that early education can be a good 
investment.
    So not only does high quality early education make a difference for 
children, it clearly matters to their employed parents. For employers 
like JPMorgan Chase, it's therefore a doubly pressing matter. We want 
to be responsive and supportive to the needs of our employees today--
and, indeed, believe such programs allows us to attract and retain top 
talent--but a commitment to quality early childhood education also 
helps us ensure the quality of our future workforce.
    At JPMorgan Chase we're an organization of 95,600 employees in 
1,076 offices around the world. (And we're slated to nearly double the 
size of our employee base with the impending merger with Bank One.) 
Here in the U.S. 60 percent of our workforce are women, with child care 
and good education being a chief concern.
    Several years back we conducted a survey with employees in order to 
formulate our child care and work-life policies. In that survey, our 
employees told us that their number one issue was finding quality back-
up care, closely followed by having enough time to participate in their 
children's activities. Our findings told us that, on average, employees 
lost 3 days a year of unscheduled time due to child care breakdowns--
and, studies done by other companies have shown that, in a heavily 
female workforce, 6 days a year of unscheduled time due to child care 
breakdowns is the norm.
    So, in looking at what's important to our employees--and our goal 
of attracting top talent both now and in the future--this need to 
quality back-up child care has driven a series of strategic choices for 
us at JPMorgan Chase. In a nutshell, our strategy is to implement those 
programs that allow our employees to contribute their best and be 
successful both at work and at home. There are four cornerstones of our 
strategy--four criteria, if you will--that all programs must meet. 
First, they have to be leadership-level quality (I'll talk more about 
that in a minute when I explain our child care programs, but it 
specifically means accreditation-level quality). Second, the solutions 
need to be inclusive of all life events, from employees who have just 
become new parents to those facing elder care issues. Third, employees 
across the country and at all levels need to be able to access them. 
These are not programs just for our head office or just for our senior 
leaders. And fourth, we need to be able to measure the effectiveness of 
the program. If we can't define the impact to our employees, their 
families and how we do business, we don't do it.
    So let me explain how this has translated into our strategy for 
early child care education, i.e. child care. I mentioned that employees 
told us their number one concern was emergency back-up child care. At 
the same time, offering back-up care offers us the opportunity to 
support greater numbers of employees (as full-time care typically 
services the same number of enrolled children.)
    In worksites across the U.S. with 1,000 or more employees, we've 
built on-site or near site back-child care centers. Our first back-up 
child care center was built in 1992 in Brooklyn, New York. Fourteen 
years later we have a total of 16 on-site centers, with well over 
20,000 families enrolled. We have a tremendous focus on quality, with 
10 of our centers receiving national accreditation and all other 
centers working toward their accreditation. Nationwide, only 6 percent 
of centers across the U.S. are accredited, but we felt it important to 
set a quality standard for our employees' children whereby every single 
center would work toward that goal.
    Employees can use our centers at absolutely no cost for up to 20 
days per year per child. It's important to note that our program is so 
much more than 8 to 10 hours of free child care for a child. Let me 
give you a flavor for the kinds of programs our centers offer that have 
such an impact on our JPMorgan Chase children:
    <bullet> All our centers offer monthly Lunch-N-Learns and Parent 
Education Workshops, where parents can discuss parenting skills and 
education topics.
    <bullet> We've sponsored Child Safety Seat Check days in our 
centers.
    <bullet> Our Growing Readers program sends age-appropriate reading 
lists and fun activities for parents to do at home.
    <bullet> Our Parent Resource Libraries offer books and resources 
that can be loaned out or used in the center.
    <bullet> We sponsor special events in the centers--like family 
story night, holiday fairs and luaus, ``books for breakfast'' 
sessions--simply events that get parents involved in their children's 
development and to have some fun along the way.
    <bullet> Teenagers of JPMC employees can attend babysitting 
classes.
    <bullet> Nurses make home visits to those parents participating in 
our Eight Week Advantage Program, a unique program whereby our 
employees are provided 8 weeks of free child care in our centers as 
they transition back to work after the birth of a child.
    <bullet> And in recognition of our effort to improve child care in 
our communities, we offer seminars and workshops for caregivers of 
JPIVIC children. These can include topics like health and safety, 
music, reading, and so on.
    Would we like to offer full-time quality care to all employee 
children? Absolutely. Is it a reasonable offering to thousands of 
employees spread across the country? No. So our back-up child care 
strategy offers us the opportunity to reach out to many employees--and 
as they experience the quality of the back-up child care provided in 
our centers, they raise the benchmark in their minds of what an early 
childhood education experience should be--and strive to duplicate that 
level when making their full-time child care arrangements. The impact 
to JPMorgan Chase of these programs has been tremendous. I've mentioned 
that we had the children of over 20,000 employees enrolled in our 
centers--meaning thousands of parents who have experienced the very 
best in education and child care arrangements. When we've surveyed 
employees about the centers' impact, they've told us that having 
offering quality child care leads to increased ability to concentrate 
on the job, improved morale, increased productivity, better attendance, 
and a huge boost in their commitment to JPMorgan Chase. In fact our 
most recent employee survey done last fall noted that there's up to a 
40 percent difference in satisfaction, commitment and productivity 
scores between those employees who say their managers support their 
work-life balance, and those who say their managers are less than 
supportive. We work hard to work with those areas with lower scores 
because we see the bottom line impact of having committed, satisfied, 
productive employees. Let me give you just two quick examples of how 
our quality programs are impacting JPMorgan Chase families.
    <bullet> In our center in San Antonio, Texas, the director of our 
child care center noticed that a child was coming into the center on 
several consecutive days and, in talking with the child's mother, found 
out that the child's babysitter had quit on short notice and that the 
child's father had just been deployed to Iraq. The center suggested the 
idea of providing 20 extra days--on top of the 20 already received by 
employees--for any child whose parent was being called up for military 
duty--and thus was born our ``Patriotic Advantage'' child care program. 
We were able to help employees already under a great deal of stress and 
provide some safe, quality care in the process.
    <bullet> Another center was able to accommodate a family whose 18-
month old child was born with fluid on the brain. Teachers were able to 
spend time--in the short time the child was at the center--working on 
the toddler's developmental skills. By the time she left the center, 
she was able to communicate with a few words which she previously did 
not have the capability to do. Additionally, our center was able to 
provide information to help the family research quality full-time child 
care arrangements.
    And again, that's the point. Our aim is to let parents experience 
quality child care and education--and guide them to finding similar 
experiences in their communities and families.
    In addition to helping our employees, JPMorgan Chase is committed 
to investing in quality child care and early education in the 
communities where we do business.
    <bullet> In several of our centers we've sponsored, in partnership 
with Bright Horizons who runs our back-up child care centers, a Child 
Development Associate Program for teachers in the community to earn a 
formal child care credential.
    <bullet> Another joint program between JPMorgan Chase and Bright 
Horizons is the Bright Spaces program, which adopts local homeless 
shelters to provide fully-equipped play areas.
    <bullet> The JPMorgan Chase Child Care Grant Program was launched 
in 2000 in support of Welfare-to-Work initiatives and the need for safe 
and affordable child care options for needy families as parents look 
for jobs. So far, the program has provided 21 organizations over $1.4 
million and recoverable grants of $1.1 million to 5 organizations.
    <bullet> In New York City, we participated in the New York Child 
Care Seed Fund, which has a goal of creating 900 quality child care 
spaces.
    I've been talking about back-up and full-time quality educational 
options. After school is a huge issue as well. JPMorgan Chase recently 
participated in a study with Brandeis University's Community, Families 
& Work Program and the Alfred S. Sloan Foundation that found that 
parents with after-school stress are more than three times as likely to 
report high levels of job disruptions and more than four and a half 
times as likely to report low levels of psychological wellbeing than 
parents with lower levels of after school stress. In terms of employers 
the news is not good: employees can miss up to 5 extra days of work 
because of after school issues . . . and parents say they're often 
interrupted, distracted and drained of energy at work by nonwork 
issues--significantly make errors and turn down requests to work extra 
hours--and miss meetings and deadlines at work.
    After school issues is something that Corporate Voices is working 
on as well. From a JPMorgan Chase perspective, we've worked hard to 
give our employees the flexibility to set an alternative work schedule 
if it makes sense for the business and for their clients. Indeed, over 
20 percent of our employees are on some kind of flexible work 
arrangement. Employers need to see this as an issue and look to the 
benefits of flexible work arrangements. But community stakeholders--
community leaders, schools, local legislators--need to fund those 
community programs that keep kids safe and supervised after school and 
to drive the development of new ones.
    Employers like JPMorgan Chase can pave the way for tremendous 
change in child care and education policies. I believe we've shown that 
there's a bottom line benefit of doing so--we see a more committed, 
talented workforce as a result--and studies show the huge benefits of 
preparing our children well for the future.
    We at JPMorgan Chase have put our ``money where our month is.'' And 
believe the other companies you'll hear from today, from IBM to 
Marriott, should be commended for doing so as well. We urge Congress 
and the Administration to make early childhood education a priority for 
the country as well. We'll be happy to continue to share our 
experiences and our successes with you to make sure this happens.

    Senator Alexander. Mr. Shum.
    Mr. Shum. Thank you, Mr. Chairman, Senator Clinton.
    I am here today on behalf of Corporate Voices for Working 
Families. The 47 corporations that are members of Corporate 
Voices believe that elder care is an important business issue 
and one where considerable corporate experience can be 
instructive to developing public policy to support working 
families with elder care responsibilities.
    As the demographics change, care giving for elderly 
relatives has become and will continue to be a pressing concern 
for employers and employees. Elder care giving is a 
responsibility that is expected to touch almost all families. 
The experience should not be personally or financially 
devastating, but for many Americans today, it is.
    There is a myth that care giving is mostly a problem faced 
only by women. This may have been true in the past, but men now 
make up 44 percent of the care giving population. Another myth 
indicates that the most frail older people are cared for in 
nursing homes. The number of older people in institutions are 
quite small compared to those living in the community. And for 
those older people in the community, family members provide 70 
to 80 percent of the care.
    In a care giver's role, he or she must balance the 
responsibilities of serving their elders with the demands of 
job and career. Employees caring for older family members take 
time off from work to deal with care issues, pass up 
promotions, training opportunities, reduce contributions to 
their own retirement savings, and sometimes give up work 
entirely and retire early.
    The stress of care giving is linked significantly to higher 
rates of physical and mental health problems. A 1999 study of 
the MetLife Foundation of the National Alliance for Care Givers 
estimated that American businesses lose at least $11 billion 
per year because of employees needing to provide care for their 
loved ones. That study estimates the total cost of business in 
the U.S. was nearly $30 billion for all costs associated with 
care giving.
    IBM has continually seen elder care needs grow for its 
employees. In fact, the need has increased 200 percent since 
1986. Today, one-third of IBMers worldwide have elder care 
responsibilities. That is about 100,000 employees. And, about 
half of our employee population expect to have elder care 
responsibilities within the next 5 years.
    To address this, IBM has created a 5-year global elder care 
strategy to help our employees with care giving 
responsibilities. In 1988, we created the first national elder 
care resource and referral service. This national 
infrastructure we created now serves about 4.3 million 
employees and 270 employers.
    Almost half of our employees who used this service last 
year have parents between the ages of 75 and 84, and 30 percent 
of the employees have parents who live between 400 and 1,000 
miles away. This introduces a new complexity to this issue--
long distance care giving.
    By identifying employees' needs and the company's desire to 
maintain corporate leadership in the field, IBM will continue 
its elder care strategy. To this end, we have invested almost 
$5.5 million in more than 200 elder care projects.
    Much has been accomplished and much has been learned. 
Investments to supporting working families with elder care 
responsibilities has consistently shown an increase in worker 
retention, productivity, and loyalty.
    However, businesses have also learned that despite the 
investments, they cannot address the issue alone. Significant 
new action is needed because of the growing magnitude of elder 
care, new public policies, public/private partnerships are 
required to support family care giving to optimize the future 
workforce development.
    Here are a couple of examples. Financial assistance and tax 
breaks to help with the noncompensated cost for incidentals, 
such as transportation, respite care, home modification, 
medical supplies, equipment, and medicines.
    Another one would be the dependent care spending accounts, 
the DECAP. Currently, the IRS definition as to what constitutes 
dependents is far too limited and prevents most families from 
being able to have tax-deferred expenses associated with elder 
care in the same way that employees are able to care for 
children.
    In summary, elder care is a silent problem. While it is 
socially acceptable to speak openly about the struggles with 
your child care issues, no one will speak to the difficulties 
they are having with their elderly relatives. In fact, you may 
even earn a badge of courage or sympathy from your coworkers as 
you explain that you were up until 3:00 in the morning with a 
sick child, and they may even offer help with a project that 
you have due that day.
    But, no one will know that you were up until 3:00 in the 
morning because your elderly relative became ill in their bed 
and you had to help bathe them and put them back into bed. Just 
like child care, elder care takes hearts and minds out of the 
workplace. In fact, many employees will spend a longer time 
caring for their older parents than they did for their 
children.
    I thank you for the opportunity to share the compelling 
issues that individuals face every day as they care for their 
elderly relatives.
    Thank you.
    Senator Alexander. Thank you, Mr. Shum
    [The prepared statement of Mr. Shum follows:]

                    Prepared Statement of Mike Shum

    Mr. Chairman and Members of the Subcommittee on Children & 
Families, my name is Mike Shum, and I'm the Director of Global 
Workforce Diversity Operations with IBM. I'm here today as a partner of 
Corporate Voices for Working Families.
    Corporate Voices is a nonprofit organization with 45 member 
companies dedicated to enabling corporations to more effectively 
collaborate with policymakers and other stakeholders to accelerate the 
adoption and implementation of bi-partisan solutions that improve the 
lives of all working families.
    The 45 corporations that are members of Corporate Voices believe 
that elder care is an important business issue. It is one where 
considerable corporate experience can be instructive in developing 
public policies to support working families with elder care 
responsibilities.
    As the demographics change, care giving for elderly relatives has 
become and will continue to be more and more of a pressing concern to 
employers and their employees.
    Concerns about care giving for the elderly are rising rapidly. As 
our population ages, care giving is a responsibility that is expected 
to touch nearly all families. The experience should not be personally 
or financially devastating. For many Americans today, it is.
    More than one-quarter of the adult population has provided care for 
a chronically ill, disabled, or aged family member or friend during the 
past year, according to recent studies.
    In February 2003, the Pew Research Center found that the proportion 
of Americans worrying about having to care for an aging parent or 
relative has more than doubled since 1988 to 44 percent. Other studies 
have found that within corporations that percentage is even higher--54 
percent of working Americans expects to take on elder care 
responsibilities in the next 3-5 years.
    More than half of caregivers (53 percent to 64 percent) under the 
age of 65 are employed outside the home. In 1997, it was estimated the 
total number of employed caregivers would be 15.6 million by 2007--
roughly 10 percent of employees. Yet, more recent data suggest there 
may already be over 28 million employed caregivers!
    There is a myth that care giving is mostly a problem faced only by 
women--this may have been true in the past, but men now make up 44 
percent of the care giving population.
    Contrary to the myth that most frail older people are cared for in 
nursing homes, the number in institutions is quite small compared to 
those living in the community.
    And for those older people in the community, family members provide 
70-80 percent of the care elderly persons need to stay independent and 
in the community as long as possible.
    Home care is a $32 billion business and $83 billion is spent a year 
on paid nursing home care; that is dwarfed by the data showing that 
family care giving amounts to an economic contribution of $196 billion 
and will always be the biggest contributor to care giving.
    The prevalence of elder care will only get greater--the population 
over 85 (those most in need of care giving) is the fastest growing 
segment of the population and half of them need help with personal 
care.
    In addition, the pool of family caregivers is dwindling. In 1990 
there were 11 potential caregivers for every person requiring care, in 
2050 there will be just four.
    As our population ages, care giving is a responsibility that is 
expected to touch nearly all families.
    Employees' elder care giving responsibilities have been a growing 
issue for many years--a trend that will continue and accelerate as the 
work force ages.
    Nearly one in every four households cares for an older family 
member, and nearly two thirds of the caregivers are employed.
    Caring for an older relative consumes an average of 12 to 13.5 
hours each week, or 2 to 10 hours a day, depending on whether an 
employee is the primary caregiver or sharing care duties with other 
family members. Most caregivers will have these responsibilities for 
more than 6 \1/2\ years.
    Whatever the employed caregiver's role, he or she must balance the 
responsibilities of serving their elders with the demands of job and 
career.
    Employees caring for older family members take time from work to 
deal with care issues, pass up promotion and training opportunities, 
reduce contributions to their own retirement savings, and sometimes 
give up work entirely and retire early. The stress of care giving is 
linked to significantly higher rates of physical and mental health 
problems.
    Elder care is less visible in the workplace than child care, 
because employees tend not to talk about their elder care 
responsibilities in the same way they talk about their children.
    In fact, 80 percent of 1,200 organizations surveyed by Eckerd 
College's Human Resource Institute in 2000 said they either ``did not 
know or had to guess at the percentage of caregivers in their 
workforce''. But while many employers may not be as aware of the issue, 
the effects are as real and the scale of the problem is as great.
    A study comparing the workplace effects of child care and elder 
care responsibilities showed that workers who care for older family 
members in their homes have more symptoms of anxiety, irritability, 
depression, and physical illness than those with child dependents.
    Elder Care is a ``Silent'' problem. While it is socially acceptable 
to speak openly about the struggles with your child care issue, no one 
will speak to the difficulties they are having with an elderly 
relative.
    In fact, you can ``earn'' a badge of courage and sympathy from your 
co-workers when you explain you were up till 3:00 in the morning with a 
sick child. They may even offer to help with the project you have due 
today.
    But, no one will know when you were up till 3:00 in the morning 
because your elderly relative became ill in their bed and you had to 
help bathe them and put them back to bed. Elder Care has taken more 
hearts and minds from the workplace than child care ever has or ever 
will.
    A 1999 study by the Met Life Foundation and The National Alliance 
for Care giving estimates that American business loses at least $11 
billion per year because of employees needing to provide care for loved 
ones over 50. That study estimated the total cost to business in the 
U.S. is nearer to $30 billion for all costs associated with care 
giving.
    Over the next decade, the number of employees caring for older 
relatives is expected to double. American businesses can expect 
additional productivity impacts over the coming decade as the number of 
elder caregivers in the work force grows. And they can expect to lose 
valuable employees for whom the strain of working and care giving 
becomes too difficult.
    About one in five employed caregivers (18 percent of those under 
age 65) quit their jobs to provide care. Another 42 percent reduced the 
number of hours they work.
    What is almost impossible to estimate are the costs associated with 
the loss of productivity due to employees being understandably 
preoccupied with the problems associated with caring for loved ones 
when they are at work.
    If your mother or father has Alzheimer's Disease and lives hundreds 
of miles away, you are likely to spend a great deal of time, both on 
and off the job, thinking about your parent, and your parent's problems 
and safety.
    You are also likely to spend a large amount of time at work on the 
phone making arrangements for your family member's care.
    Elder care giving can also have devastating consequences for one's 
family. According to a study by Brandeis University's Center on Women 
and Aging, care giving costs individuals an average of $659,000 in lost 
wages, pension and Social Security contributions.
    Whereas 35 percent of the overall population has an annual 
household income of under $30,000, among care giving families that 
number is 43 percent.
    No wonder, then, that six in ten (61 percent) of ``intense'' family 
caregivers (those providing 21 or more hours of care per week) showed 
clinical symptoms of depression.
    This is a problem that is not going to go away. As our population 
ages, more and more employees, and, therefore more and more employers, 
are going to be impacted by care giving.
    There are many areas where employers can not only lessen the 
burdens that care giving places on their employees, but also lessen 
absenteeism and increase employee loyalty and retention.
    Now I would like to brief you on IBM's Eldercare Strategy.
    IBM has continually seen the need for elder care grow for its 
employees. In fact, in the U.S., the need has increased 200 percent 
since 1986 (9 percent to 27 percent).
    And this is not just a U.S. issue.
    From IBM's 2001 Global Work/Life survey, 45 percent of employees in 
Asia Pacific, 41 percent in Latin America (up from 33 percent in 1998), 
26 percent in Europe, Middle East and Africa and 25 percent in Canada 
have responsibilities for elders.
    Today, one third of IBMers worldwide have elder care 
responsibilities--that's about 100,000 employees. And about half expect 
to have elder care responsibilities in the next 5 years.
    To address this, IBM created a 5-year Global Elder Care Strategy 
with three components: employees as elder caregivers; employees' elders 
and employees as mature workers.
    According to IBM's recent studies, the ``ideal'' workplace of the 
future for the elder caregiver will offer:
    <bullet> Flexible hours for employees
    <bullet> Managers who respect working caregivers
    <bullet> Family-friendly culture
    <bullet> Healthcare benefits that recognize dependent care for 
older relatives and the mature worker
    <bullet> Access to a low-cost care manager
    <bullet> Access to information about community resources and 
services.
    Getting closer to this ideal workplace is an important business 
strategy for IBM, so the company can attract and retain top talent in 
the industry and help employees meet their needs to balance work and 
personal lives.
    That's why we've invested almost $5.5 million dollars in more than 
200 elder care projects.
    In 1988 we were the first companies to add national elder care to 
our existing child care resource and referral service in the U.S., 
which is now known as Lifeworks.
    Forty-eight percent of employees who used our elder care resource 
and referral services last year have parents between 75-84 years old 
and 30 percent of employees have parents who live between 400-1,000 
miles away.
    IBM has a wide span of supportive programs and services that starts 
with the community level where IBM works with local employees and 
communities to identify specific challenges and solutions to those 
challenges.
    For example:
    <bullet> IBM hosts elder care support meetings for our employees.
    <bullet> IBM sponsors elder care fairs in the workplace.
    <bullet> The company provides tip sessions on areas of specific 
interest for employees.
    <bullet> IBM surveys employees regularly to continue to refresh and 
learn about emerging issues.
    <bullet> And the company's research and development for elder care 
transportation resulted in the elder care driving kit and community-
specific elder care transportation services.
    On a national level, through the American Business Collaboration 
for Quality Dependent Care--a collaboration of corporations formed in 
1992 and committed to ``do together what none of us can afford to do 
alone--IBM has:
    <bullet> Developed kits to educate employees about how to help 
their elder relatives' transition out of self-transportation.
    <bullet> Worked on projects for elder day care facilities to 
address the issues of quality dependent care through accreditation 
models.
    IBM's major elder care programs include:
    <bullet> Long-Term Care Plan--offers employees the option to 
purchase insurance for eligible family members at group rates. Benefits 
help pay expenses relating to disabilities or illnesses when people can 
no longer care for themselves.
    <bullet> Counseling and Referral through LifeWorks--IBM offers a 
free elder care counseling and referral service to help employee's and 
their family locate elder care service providers such as medical 
services and in-home services; housing arrangements; nursing homes, 
etc.
    <bullet> Lifeline Personal Response Service--Emergency care to an 
employee's older or physically challenged relative at the touch of a 
button. The service is available 24 hours a day. Waterproof wrist or 
neck help buttons, designed to be worn at all times, combined with a 
phone monitoring unit that uses voice prompt features, make Lifeline 
simple to use.
    <bullet> Elder Care Webinars--An Online Seminar or ``Webinar'' uses 
a collaborative tool to deliver a Web-based seminar to employees. 
Webinars are delivered live by LifeWorks trainers, experts in their 
field, and facilitated by a technical meeting host.
    <bullet> Elder Care Moderated Chats--Designed to help IBM employees 
share information, advice and support with the guidance of an expert. 
Moderated chats are held weekly for an hour, over a period of 4 weeks.
    <bullet> Generations on Line--Easy-to-use software will teach even 
the most skeptical elders to use the Internet and e-mail! Net-surfing 
is possible in 25 languages!
    <bullet> SeniorNet, a partnership designed to provide elder 
relatives (55 and older) with training and an introduction to 
technology in centers around the country (we've just announced a grant 
of 660k with SeniorNet and Generations Online to provide simplified 
Internet access to older adults in over 1,000 communities).
    <bullet> Intergenerational Programs--A program to pair individuals 
from SeniorNet with school age programs. It is particularly popular 
with people from cultures who really value the interaction between 
elders and young children.
    <bullet> And IBM provides a series of topic-specific tapes, 
booklets and pamphlets and, most recently, the comprehensive Elder Care 
Management Services, which allow employees to have an in home care 
assessment or a facility assessment to better understand the needs and 
options for their elders.
    Let me briefly outline the third component of IBM's strategy--the 
mature worker. IBM defines mature workers as employees 50 and over.
    Older workers are remaining in the workforce--the early retirement 
trend is reversing. Employees want to work longer--but differently. We 
know that most of IBM's mature workers would prefer to retire 
gradually.
    In addition, there will be a shortage of IT workers--a 1.6 million 
shortage by 2005, so it's important to address the company's mature 
workers' needs now.
    The average age of IBM's U.S. workforce is 42, up from 40 last 
year. And IBM's customers are getting older too.
    As a result of this maturing workforce, IBM plans to build on its 
existing foundation of services, programs and policies to develop a 
leading edge, comprehensive response to attract and retain mature 
workers.
    By identifying employees' needs, what IBM knows is good business 
sense, and the company's desire to maintain corporate leadership in 
this field, IBM will continue its three-pronged strategy.
    Just as employers adapted to the unprecedented entry of women into 
the work force in the second half of the 20th century, so they will 
need to adapt to this equally momentous demographic shift toward an 
aging society.
    The employer response to the entry of women was gradual and lagged 
significantly behind the needs and opportunities presented by the labor 
force change. We now know that many employers gained competitive 
advantage and improved productivity by introducing policies and 
benefits that encouraged the recruitment and retention of talented 
women and addressed the needs of working couples and parents.
    In the same way, employers today face new challenges and 
opportunities related to an aging work force, one of which is 
increasing numbers of employees, men and women, who must arrange for or 
provide care to aged family members.
    The challenges these working families face, on a day-to-day basis, 
represent a very high cost to the business bottom line. Because of this 
understanding and to reduce these costs, American corporations have 
been investing in policies and programs to support employees with elder 
care responsibilities for over 15 years.
    Much has been accomplished and much has been learned. Investments 
to support working families with elder care responsibilities have 
consistently shown an increase in workforce retention, productivity and 
loyalty.
    However, businesses have also learned that despite the investment, 
they cannot address the issues alone. Significant new action is needed 
because of the growing magnitude of elder care. New public policies and 
public private partnerships are required to support family care giving 
and to optimize future workforce development.
    Some of those pressing issues include:
    <bullet> Family and Medical Leave Act (FMLA). Family members caring 
for elderly parents may need more than 12 weeks, especially when a 
parent or loved one is nearing end of life.
    <bullet> Flexibility in working hours and/or ability to use sick 
leave for caring for family members.
    <bullet> Financial assistance and tax breaks to help with the 
noncompensated costs for incidentals, transportation, respite care, 
home modifications, medical supplies, equipment and medicines.
    Dependent Care Spending Accounts (DECAP). Current IRS definitions 
of what constitute a dependent elder are too limited and prevent most 
families from being able to tax-defer expenses associated with elder 
care in the same way employees are able to for child care expenses.
    <bullet> Respite care services to relieve stressed caregivers are 
sorely needed.
    <bullet> Availability of affordable long-term care insurance to 
cover the catastrophic costs of nursing home care or in home health 
care services.
    I thank you for this opportunity to share with you today the 
compelling issues that individuals struggle with every day as they care 
for their elderly relatives.

    Senator Alexander. Carol Evans.
    Ms. Evans. Thank you, Senator Alexander.
    I would like to tell you a little bit about our list. It is 
quite a famous list. It gets about 800 million media 
impressions every year when it hits the newsstand in October.
    It was started back in 1986 by Vivian Cadden, who was our 
first editor. She was a personal friend of Eleanor Roosevelt, 
and a very interesting lady. She had a very simple idea. She 
thought that if she could get CEOs to compete every year, to 
make a list that would acknowledge the companies that are doing 
the most for working mothers, that she could get one CEO to be 
jealous of another CEO being on that list, and by that 
jealousy, actually have them focus their attention, which is 
very limited--I mean, how much time can a CEO spend on any one 
issue--to focus their attention on the needs of our readers. Of 
course, that is exactly what happened.
    Two decades later, almost, the list has become the measure 
of how American companies should lead in this area, and how 
they should treat their working mother employees on so many 
issues. In fact, the application for this list, as many in this 
room know, has 535 questions. We ask every imaginable question 
about how employers treat their working parent employees, on 
everything ranging from whether you have a lactation room in 
the office, your flexibility policies, child care policies, all 
of the issues that relate to elder care, many of the issues 
that we are addressing here today. These are quantified on the 
application form, measured by a computer, and an actual ranking 
of companies comes up that we use to create our list.
    I doubt that Vivian Cadden, actually, so many years ago, 
would have had any idea of the enormous impact of this list. 
The reason why this list has had such an impact is because the 
need is so strong.
    I want to make a very clear case here about something, 
though, which came up in your questioning, Senator Alexander, 
and that is that there is an enormous amount of joy in the idea 
of a lifestyle of being a working mother. Many, many working 
mothers come to their jobs with a sense of great exhilaration, 
challenge, creativity, looking forward to being able to 
contribute to a productive American society in the way that 
they do. The fact that they want to contribute and want to 
lead, in fact, American companies is really important for us to 
get into our heads when we look at what we need to do for 
working parents.
    This is not just about the care and feeding of children. 
That is an incredibly important part, but it is also about the 
psyche of the American woman, though, and what she wants to be 
doing and how she wants to be contributing to the American 
world today.
    We have seen incredible changes in the work family 
landscape. More women are in top ranks because of maternity 
leave and phase back programs allow them to remain on track. 
There are many more on-site child care centers today, and a lot 
of companies realize that it's not just about creating a 
headquarters child care center, but really spreading out the 
care among all the employees nationwide. The increase in aid 
and leave for adopting parents has been a huge sea change and, 
of course, flextime not only allows parents a sense of balance, 
but also a sense of control, which is incredibly important.
    Family-friendly benefits--I want to make a statement on 
that, too. They are very good for American companies. Steve 
Sanger, the CEO of General Mills, said it very well at our 
conference last October. He said, ``Work life benefits aren't 
expensive. Turnover is.'' That's a huge point. Being able to 
attract talent and being able to keep talent in American 
companies, being able to make women a very important and vital 
part of our workforce, is what this is all about.
    But, there is also good news, in that there is an ROI that 
we have seen on programs that the 100 best companies institute. 
In fact, last year a study from Cornell University by Daniel 
Simon said that there was a billion dollars of market cap per 
company that they could identify for companies on our list, 
that was related to customer satisfaction that he traced back 
to employee satisfaction. A billion dollars of market cap per 
company, that's a huge amount of value created by working 
mothers and working fathers.
    Every year, we raise the bar on what makes a company an 
employer of choice for working mothers, and there are five 
trends I want to identify today. One is child care programs, of 
course, which are very important. But, what companies are 
doing--and Joy mentioned this very nicely--companies are adding 
to the basics of child care by adding after-school programs, 
vacation care, and kindergarten. I have been to the JPMorgan 
center in Manhattan. What a place that is, right in downtown 
Manhattan, where children are playing and having fun. It's an 
amazing sight.
    Of course, IBM, one of the leaders in this area, has 63 on 
or near site child care centers that they support all across 
the country. Companies like Marriott give child care credits 
and contract with child care centers to give a discount to 
their employees, an equally valuable idea.
    Two, adoption aid has become very important. Today, 48 
percent of the 100 best companies offer paid adoption leave and 
some support for adoption payments as well. It's a very high 
percentage.
    Three is support for parents with teens and' tweens. We all 
think about the trials and tribulations that Mr. and Mrs. 
Martinez are going through with their 7- and 8-year-olds. But, 
what about teens and' tweens? When you have big kids, you have 
very big problems. I can tell you that because I have a 17-
year-old and a 14-year-old.
    Actually, what happens is that also, as women reach the top 
of their careers, and when they are the most productive and 
most helpful to their companies and to the American society and 
productivity, is when their kids are older. Then, those 
problems hit and how do you handle that? JPMorgan Chase and Eli 
Lilly both have incredible programs designed to help parents of 
older kids, even teaching courses to employees about how to 
manage teenagers, so when they go back home, they know what to 
do.
    Four is flexible scheduling and benefits for part-time 
workers. One-hundred percent of the 100 best companies have 
flextime scheduling. That is a huge difference from most 
companies in the country today. The effectiveness of programs 
like compressed work weeks, tele-commuting and flextime really 
showed up after 9/11, when companies in New York City and in 
Washington, DC were able to rely on systems that they had put 
in place to create flexibility. Those systems saved a lot of 
companies from having an even more disastrous time during those 
horrible days and months after 9/11.
    The fifth trend is that companies are helping employees 
with life's emergencies, something that we really didn't 
predict when we started the list. Emergency situations, child 
care, even a sick babysitter or sick child care provider, elder 
care emergencies, these are huge. It is estimated that 
companies lose $12 billion a year due to absences. So, 
companies are really working hard on how to create a support 
system that really impacts these kinds of emergency situations.
    Another small point I want to make is that this is not just 
for moms or dads equally benefiting from this. When men use 
work life benefits, a point that we have been telling to all of 
our male friends, when men use work life benefits, the stigma 
of having these benefits just for women is lifted. That has a 
gigantic impact on women's careers, as companies make choices 
of who to move up further and farther into P&L 
responsibilities. We encourage all men to take their vacations, 
for example, and also to take advantage of paternity leave, of 
which there are now many companies offering paid paternity 
leave, one of the things we measure for the 100 best companies.
    Of course, there are many, many problems. Even big 
companies, even Fortune 1000 companies who aren't on our list, 
are lacking in some of these very basic benefits. And, then you 
look at the companies who have less than 50 employees, who 
aren't even covered by the FMLA. There are huge problems, where 
so many companies don't even have to give basic paid maternity 
leave, or basic maternity leave benefits. That means that 40 
percent of America's workforce is not covered by maternity 
leave laws.
    Finally, I want to mention the welfare-to-work mothers, of 
which there are so many today, are in a double bind of having 
no affordable child care and being required to work full-time 
jobs. It is a very difficult double bind, what I would almost 
call a double jeopardy for welfare-to-work moms. We need to 
straighten that out and need to figure that out.
    Companies are doing so much for employees, especially the 
100 companies that make the list every year for the 100 Best 
Companies for Working Mothers. We are proud of those companies. 
But, it is not enough just to rely on corporate America. You 
know that, we all know that. Everybody needs help from the 
Government. We are asking you to take a very close look at 
programs that can support working families.
    There was a very interesting law passed in California that 
created family leave laws for smaller companies and for all 
employees in that State, where employees are contributing money 
to be able to draw back down when they have children.
    We also want to look at the part-time worker employee 
situation. We want to have a great focus on the child care 
problem. The New York Times recently wrote a very interesting 
editorial about a $6 billion welfare/child care bill that's in 
the Senate, and we think that is a wonderful start. We also 
think the Senate and the Congress should support Head Start 
every year and not have that become a big issue, as it seems to 
come up every time it needs funding.
    So, we're in this together, corporate America with 
Government, with working families, and we are so proud of the 
work that Working Mothers is doing to make this country one of 
the most highly productive countries in the world. We think 
their contribution is essential to our economy. In fact, I like 
to give credit to Working Mothers for the great economic State 
that the country has been in for the last 25 years. But, we 
believe there is so much support that they need and we are so 
grateful to you for taking the time out of your incredibly busy 
schedules to look at these issues.
    Thank you.
    Senator Alexander. Thank you very much, Ms. Evans.
    [The prepared statement of Ms. Evans follows:]

                   Prepared Statement of Carol Evans

    One of the reasons that I came back to acquire Working Mother 
magazine in 2001--3 weeks before 9/11--was the remarkable legacy of the 
magazine's founding editor Vivian Cadden.
    A personal friend of Eleanor Roosevelt, Vivian launched the list we 
now call the 100 Best Companies for Working Mothers in 1986. That first 
list acknowledged companies offering some kind--any kind--of solution 
for working mothers. She knew that getting CEOs to compete to be the 
employer of choice for working mothers would catalyze change.
    And it has. Almost 2 decades later, the list--with its competitive 
analysis of over 400 different elements of work/life programs for 
working parents--has become the measure of how leading companies should 
deal with the important needs of working mothers and fathers, ranging 
from maternity and paternity leave, breastfeeding and flextime to elder 
care and child care. Our list sets a standard for others to live up to.
    But I doubt that even the visionary Vivian Cadden could have 
predicted the impact of Working Mother`s 100 Best list on corporate 
America: what a coveted award this would become, or how it would lead 
to a sea change in corporate America and in the lives of all working 
parents. Every year, hundreds of companies vie for a spot on the list. 
Human Resource departments carry the list into the corner office as 
evidence of what can and needs to be done. Companies began keeping 
records of the numbers of employees using programs so they can compete 
to make the list. And that has led to real change: What gets measured 
gets done.
    Significant changes in the family-friendly work landscape include:
    <bullet> More women in top corporate ranks, as maternity leave and 
phase-back programs mean women can have families and remain on track;
    <bullet> Increased number of on- and near-site child care 
facilities as well as resource and referral services;
    <bullet> Advent of aid and leave for parents adopting children; and
    <bullet> Flextime scheduling that allows America's working parents 
to balance work and family commitments.
    Of course, corporate America would not have made these changes had 
the bottom line not improved as a result. Family-friendly benefits are 
good for business, good for the economy and good for the country. In 
the words of Steve Sanger, CEO of General Mills: ``Work/life benefits 
aren't expensive; turnover is.''
    The 100 Best Companies find that programs that support working 
parents increase productivity and build employee loyalty. In fact, a 
Cornell University study by economics professor Daniel Simon found that 
the 100 Best winners have more satisfied employees and therefore, more 
satisfied customers, which correlates to substantially higher stock 
values.\1\
---------------------------------------------------------------------------
    \1\ Making the Working Mother 100 Best Companies list increased 
customer satisfaction by between one and five points on the American 
Customer Satisfaction Index (ASCI). Cornell University Economics 
Professor Daniel Simon concluded that the 100 Best winners 
significantly boosted their worth because their generous work/life 
benefits resulted in happier, harder-working employees who, in turn, 
provided customers with better-quality products and better services. 
(Daniel Simon, Happy Employees, Happy Customers: Understanding the 
Relationship Between Human Resource Management and Practices, Labor 
Market Opportunities and Customer Satisfaction, study, Cornell 
University, 2002)
---------------------------------------------------------------------------
    Every year, companies continue to raise the bar on what makes a 
company the employer-of-choice for women. Here are some key new trends 
at leading companies:
    1. Child Care Programs Increase. Companies are adding to what they 
offer in child care to include afterschool, vacation and sick-child 
care, as well as kindergarten. According to the Children's Defense 
Fund, full-day child care costs $4,000 to $10,000 per year. Of the 100 
Best, 63 percent offer on- or near-site child care.
    Another 96 percent offer resource and referral services and 
reimbursements. At the company that wrote the book on corporate child 
care--IBM--parents have access to 63 on- or near-site child care 
centers across the country. Marriott offers pretax set-asides for child 
care and has contracted with a network of caregivers who give employees 
an average discount of 10 percent for full-time, before- and 
afterschool care and some backup care.
    2. Adoption aid. One of our readers wrote to thank us for calling 
attention to adoption benefits in our 100 Best list, saying, ``Because 
many employees base their paid leave benefits on pregnancy's 
classification as short-term disability, most adoptive parents aren't 
allowed comparable paid leave. An adoption may require additional time 
to promote bonding or extended travel for international adoptions, so 
adoptive parents are often put in the difficult financial situation of 
taking extended unpaid leave.'' Of the 100 Best, 48 percent offer paid 
adoption leave.
    3. Support for parents with teens and' tweens. As the mother of two 
teenagers, I KNOW how hard this is. Big kids equal big problems. The 
issues are compounded by the fact that by the time women are dealing 
with teens, they have achieved a high level of responsibility in the 
workplace. To help such women, some companies are offering innovations. 
For example, JPMorgan Chase has designed afterschool and vacation 
programs to help fill a nationwide shortage for the postplayground set. 
Eli Lilly offers ``Safe Sitter'' workshops for employees' children, 
where during vacations, kids learn how to earn money and take 
responsibility for younger siblings. Pearson Education gives an Active 
Parenting of Teens workshop series on sexuality, self-esteem, violence 
and discipline. GIaxoSmithKline offers an SAT prep course.
    4. Flexible scheduling and benefits for part-time workers. One 
hundred percent of the 100 Best Companies now have some sort of 
flexible scheduling--even in manufacturing industries and those that 
operate 24/7. The effectiveness of programs like compressed workweeks, 
telecommuting and flextime were validated post9/11. In addition to 
fostering an independent working environment, companies were able to 
maintain ``business as usual'' through programs like telecommuting and 
part-time work arrangements. Also important: Many of those 100 Best 
employees who work a part-time schedule of as few as 15 hours a week 
have access to benefits.
    5. And the last trend I'll mention: Companies are helping employees 
with life's emergencies, like elder-care issues or sick and emergency 
child care. Pernille Spiers Lopez, president of IKEA North America--
named as our Family Champion this year--says, ``Take care of your 
personal life, and the work will follow.'' It's estimated that 
companies loose at least $12 billion a year, due to absences--many of 
which can be tied to life's little emergencies like dealing with an 
elderly parent or a sick child. \2\ Financial company PNC sends a 
trained geriatric specialist into the home to assess and plan for 
living issues for an elderly parent, such as nutrition, medicine, 
safety and psychological needs. KPMG offers 60 hours of in-home 
emergency dependent care.
---------------------------------------------------------------------------
    \2\ MetLife Study of Employer Costs for Working Caregivers, June 
1997.
---------------------------------------------------------------------------
    It's clear that these benefits aren't just for moms--they're for 
everyone. More dads at the 100 Best are taking advantage of these 
benefits. When men use work/life benefits such as parental leave or 
flextime, it helps lift the stigma for women.
    And companies are realizing their employees need support in all 
stages of life. The 20-something employee needs time to get degrees or 
get exercise. New parents need time off to care for a baby. The 
seasoned worker has to handle a troubled teen or an ailing parent.
    Now the 100 Best Companies are amazing--but there are only 100 of 
them. They employ only slightly more than 2 percent of the over 138 
million employed Americans. There are millions of employees who still 
don't have access to programs and benefits to help them balance their 
work and family lives, including some at Fortune 1,000 companies and in 
smaller businesses and especially at those not covered by FMLA (which 
affects only 6 percent of the Nation's businesses).
    There's still much to be done. Only a handful of companies offer 
any paid parental leave, and only a few offer job guarantees beyond 
FMLA, so millions of families need the government's help today. Forty 
percent of the labor force is not entitled to leave. The New York Times 
recently reported that ``only 15 percent of children eligible for 
federally financed child care actually get it. More than 400,000 
children will fall off the rolls over the next 5 years. That will mean 
disaster for their families.'' And the double bind of required work 
hours and no affordable child care that faces welfare moms is 
untenable.
    Companies can do a great deal to support their working family 
employees, but it's only part of the solution.
    We are asking you to support programs to help America's working 
families. A national paid family leave law like that recently 
implemented in California would be a great start. And let's continue 
the conversation about helping the part-time workers in America.
    And we must continue to work toward a solution to America's serious 
childcare problem. The $6 billion welfare/childcare bill in the Senate 
is a great start. We at Working Mother also stress the importance of 
continued support for Headstart.
    Thank you for your attention to the issue. Together, we can make a 
difference for America's children, for working parents and for our 
country's economy.

                               APPENDIX I

    How the companies on Working Mother magazine's 100 Best Companies 
for Working Mothers list compare with the companies nationwide:
    100% of 100 Best offer flextime vs. 55% nationwide
    99% of 100 Best offer an employee assistance program vs. 67% 
nationwide
    98% of 100 Best offer elder-care resource and referral services vs. 
20% nationwide
    96% of 100 Best offer child care resource and referral vs. 18% 
nationwide
    94% of 100 Best offer compressed workweeks vs. 31% nationwide
    93% of 100 Best offer job sharing vs. 22% nationwide
    77% of 100 Best offer therapeutic massages vs. 11% nationwide.
    47% of 100 best sponsor sick-child care vs. 7% nationwide
    44% of 100 best offer before/afterschool care vs. 4% nationwide
    39% of 100 Best offer paid paternity leave vs. 12% nationwide
    27% of 100 Best offer paid maternity leave beyond the short-term 
disability period vs. 14% nationwide

    Senator Alexander. This has been very helpful for us and 
for the entire U.S. Senate. This is the way we do our work. We 
make a record, we put a spotlight on the issues, we invite 
those who know what they're talking about to come here and 
share their wisdom with us. You have been especially helpful in 
your testimony, because you have been specific about the things 
that you think we could do.
    I would like to invite you, after you reflect on this, if 
you have any further thoughts, we would like to have them. If 
you would like to make a list in a little different way, let me 
suggest this:
    There are some big ideas that many of you have suggested; 
there are some expensive ideas. But, you should make a list for 
us starting with the easiest things to do and working up to the 
hardest that would help put the Federal Government on the side 
of parents raising children. Now, we will include elder care in 
that as well, Mr. Shum, because that is an important part of 
it. But we can work on several things at once, and while we're 
working on the tougher things or the more expensive things, 
there is no need to ignore the things that we might be able to 
just agree on and get done.
    I am thinking not just about things that we need to 
proactively do, but some of you have suggested some barriers in 
the way. So, if you have time to do that, I would welcome that, 
and I am sure Senator Clinton and other members of the 
committee would as well.
    Now, Senator Clinton and I have a vote in a few minutes, so 
we will have to wrap this up shortly. But, why don't I ask one 
question and then ask Senator Clinton if she would like to ask 
a question, and as long as we have time, we will alternate, and 
if you will be brief in your answers, that will give of us a 
chance to ask questions.
    Let me go to you, Ms. Klein. You mentioned the Advance EITC 
problem. Tell me exactly what we need to do about that.
    Ms. Klein. The Advanced EITC is very cumbersome for 
employees to apply for. What it does is give them the money 
and, rather than at the end of the year, it puts it in their 
paycheck, which is much more family-friendly, if you will. They 
can spend it on real weekly expenditures, whether it's utility 
bills or transportation, etc.
    The process is very cumbersome because it requires a lot of 
documentation, a lot of record keeping. It requires a lot of 
work on the part of the employer to get the employees enrolled 
because it is the employer's role to do that. They can't apply 
for it individually. It's very cumbersome. It's just a very 
user unfriendly piece of legislation.
    I think that was complicated this year, because the IRS did 
roll out a pilot to do some precertification on EITC applicants 
in general. That made it doubly burdensome for Advanced EITC. I 
think that pilot did occur last fall and it is ongoing. We 
would like to see and be involved in discussions about any kind 
of precertification or modifications to Advanced EITC. That 
would be, I think, as you pointed out, a very cost effective 
thing to do.
    Senator Alexander. Thank you.
    Senator Clinton.
    Senator Clinton. Thank you very much.
    I also want to thank the corporations that are represented 
here for their commitment to this, and recognize Marriott's 
long time commitment to employing welfare workers and getting 
them into the workforce, which has been a tremendous success. 
We really thank you for that.
    One of the mysteries to me is, as I have been involved in 
these issues now for a long time, it seems like, both on a 
personal level, balancing family and work and worrying about 
sick care givers and all kinds of other challenges. I have 
attended innumerable meetings and conferences. I have visited 
child care centers in every kind of setting you can imagine, 
emergency backup centers as well as more traditional ones. I 
have read the reports that seem to come out every year 
underscoring the benefits to businesses for these kinds of 
investments.
    And, here we are in 2004 having yet another hearing on 
these matters, because we still have a big problem. As Mr. 
Shum's testimony pointed out, from his IBM experience, we are 
heading for the biggest ``sandwich generation'' crisis that one 
can possibly imagine.
    Mr. Chairman, I recently met a 75-year-old woman who is now 
caring for her 95-year-old mother, and her 52-year-old daughter 
who just was in a serious automobile accident. The longer we 
live, the more those responsibilities will increase. We are 
right on the cusp of seeing an incredible conflict between the 
productivity needs and the personal desires of our workforce, 
men and women--but we all know most of the burden falls on 
women--and are not prepared for it. We don't have a structure 
in place. We don't have the right incentives in our tax system. 
We just are behind the curve.
    I guess the first question I would like to ask each of the 
representatives of Marriott and JPMorgan and IBM, and of 
course, Carol Evans, who follows this. What do we need to do to 
both make the case more effectively, and if you could do one 
thing, either in the private or public sector, that would 
encourage more businesses to follow your lead, to make the 
investments, what would it be? Ms. Klein?
    Ms. Klein. Thank you. That is the reason Corporate Voices 
was founded 3 years ago. Our charter, what we are funded to do, 
is to communicate the business case to medium and small sized 
companies. Right now, you have large corporations and big brand 
companies, consumer brand companies, that are involved because 
of a lot of branding issues, etc.
    But, the medium and small sized companies are who we need 
to reach. We issued a report today--and it's available on the 
side table--and it identifies and articulates 15 company best 
practices for low wage and hourly earners. We will be 
disseminating that through the chambers, through the Business 
Roundtable, etc., to small, small companies throughout the 
country. That is exactly the reason we exist. So, we hope we 
are beginning to make a dent into that.
    I think your point is well taken. I don't think it is that 
the companies don't want to do any kind of supportive policies 
and programs. I really think they don't know about it.
    Senator Clinton. I think that's a fair comment. There is 
still a lot of mythology out there about what it means. I would 
love to get a copy of that report on the side table, too, if 
somebody could maybe grab that for me.
    Ms. Bunson?
    Ms. Bunson. I would actually echo what Donna just said. I 
think that many companies--you know, I think probably everybody 
here in this room with a vested interest in this issue has sat 
through many forums like this, where the business case is very 
clear. But, I don't know that, on a national level, we have had 
a real concerted campaign, essentially, to get the business 
community enrolled, the business community being large and 
small employees, about the value of providing these kinds of 
support services to working parents.
    Having been in this field for maybe 14 years now, I think 
the attention at the national level is a little bit episodic in 
that it ebbs and flows. My experience in the business world is 
you can't give up because of that. Getting attention for a 
short time and then lose attention are things that business 
leaders start to question. And, what we're talking about is a 
long-term strategy for change.
    So, I think some sort of a campaign that would really say, 
you know what, this issue is critical, it's critical to the 
country, it's critical to our employees, it's critical to our 
competitiveness, and it is not going away, in compelling 
language, would make a huge difference for issues that 
employees face both in dealing with parenting issues as well as 
elder care concerns.
    Senator Clinton. Thank you.
    Mr. Shum?
    Mr. Shum. Thank you.
    Two things. We found that flexibility is not just a nice 
thing to do. It is a business imperative. We have also found 
that there is a direct correlation between a manager who 
believes in flexibilities and allows flexibility practices in 
his or her department and the employee morale and productivity 
for that particular group. There is a direct relationship.
    We also have done a number of work life surveys, and we 
asked questions like ``what would be the things that would 
cause you to leave IBM before your time?'' Work life issues 
typically come in around number three or so. But, for three 
groups of employees--our top performers, employees under 40, 
and women--the number one reason was work life balance. So, 
those things have made it very compelling for us, and that's 
the story that we tell.
    Senator Clinton. What percentage of your total workforce 
are those three categories; do you know?
    Mr. Shum. I don't have that exact percentage with me right 
at the moment.
    Senator Clinton. That is a significant number. Thank you.
    Mr. Shum. Yes.
    Senator Clinton. Ms. Evans?
    Ms. Evans. Well, on the small and medium sized companies 
point, first of all our list has no limit on size, either up or 
down. So, we have lots of small companies that apply and we 
have lots of small companies that make this list. I think it's 
very interesting. Patagonia has only 492 employees, and they 
have made the list for years. JFK Medical Center, many 
hospitals that focus very clearly on their female employees 
because they have a very high percentage, are doing great, 
great things.
    The small companies say, oh, the big companies have so many 
resources, it's easy for them. And the big companies say, oh, 
the small companies have so few employees, that it's easy for 
them. The truth is that they both can do it.
    But, I think institutionalizing some of the things that 
just make logical sense is such an important point. For 
example, when you take flexibility, if you can take flexibility 
from being the manager's discretion and you say this 
flexibility is required to be allowed by every manager and 
every department, and we will set up a template that reflects 
the reality of that department, but it will follow flexibility 
rules for the company, then every employee gets flexibility, 
not just the ones who have a really nice manager. This is what 
we're trying to encourage companies to do, is to 
institutionalize.
    One thing that the Government can do, very importantly, is 
to look at their relationship with their employees--and the 
Government is probably still the biggest employer in the 
country. You should look at how the Government could 
institutionalize flexibility for their employees, and lead as 
an example. I mean, the Government can be, and is in many 
cases, a test case of how flexibility, how child care, how all 
of these benefits for employees can work for American 
businesses.
    Senator Alexander. Thank you again. I think we're coming up 
so close to voting time, Senator Clinton, that it is time to 
wrap this up.
    This has been very helpful. It coincides with the release 
of some important new research and information by two of the 
witnesses' organizations here today. You have given us specific 
suggestions about how we can work on this, and we will continue 
to focus in this Subcommittee on Children and Families on the 
job of being a parent, and this discussion today on workplace 
and family-friendly workplaces has been very helpful.
    I would like to thank our staff, which has worked awfully 
hard putting this together. Marguerite Sallee and Page Curry 
have done a terrific job working with Senator Dodd's staff. 
Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee adjourned.]


</pre></body></html>
